<html>
<title> - RESEARCH INTO PERSIAN GULF WAR VETERANS' ILLNESSES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
           RESEARCH INTO PERSIAN GULF WAR VETERANS' ILLNESSES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 10, 2002

                               __________

                           Serial No. 107-237

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
89-074 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             CAROLYN B. MALONEY, New York
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Kristine McElroy, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 10, 2002.................................     1
Letters, statements, etc., submitted for the record by:
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Letter dated October 7, 2002.............................     6
        Prepared statement of....................................     3
        Transcript of June 18, 2002..............................    40


           RESEARCH INTO PERSIAN GULF WAR VETERANS' ILLNESSES

                              ----------                              


                       THURSDAY, OCTOBER 10, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, and Gilman.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Kristine McElroy, professional staff member; Jason M. 
Chung, clerk; David Rapallo, minority counsel; and Teresa 
Coufal, minority staff assistant.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Veterans Affairs and International Relations 
hearing entitled, ``Research Into Persian Gulf War Veterans' 
Illnesses,'' is called to order.
    My statement is that if we have to send American armed 
forces onto a potentially toxic battlefield in Iraq once again, 
the lessons of the last Gulf war cannot be left behind. The 
most important lesson is that diagnosis and treatment of the 
wounds inflicted by multiple exposures to chemicals, pathogens, 
toxins and medicines require an openness to new theories of 
causation and cure.
    That openness, and the promising research hypotheses it 
spawns, have not always driven the Government-funded research 
portfolio. But privately supported studies have brought new 
insights into the mysteries of Gulf war syndromes.
    In June, Mr. Sanders, Mr. Putnam and I participated in 2 
days of extraordinary meetings in London on Gulf war veterans' 
illnesses. Lord Alfred Morris of Manchester, who participated 
in a subcommittee meeting here in January, invited us to meet 
with veterans, parliamentarians, and researchers from the 
United Kingdom. As in January, we were joined by Ross Perot, an 
outspoken and tireless advocate for Gulf war veterans.
    Our meetings in London were memorable for two reasons. 
First, the U.K. veterans and surviving family members spoke 
with the same quiet, aching eloquence we have heard so often in 
this very room from their U.S. counterparts. They shared their 
sense of frustration and betrayal over a decade of official 
denials from both sides of the Atlantic about the role of 
wartime exposures in causing their illnesses.
    Second, a panel of researchers, mostly privately funded, 
presented remarkable findings on subtle but objectively 
discernible brain cell damage resulting from toxic exposures. 
The damaged cells can send distorted chemical signals 
throughout the body, explaining the variety of symptoms and 
syndromes suffered by Gulf war veterans. We convene this 
hearing today to make that compelling personal testimony, and 
that important scientific data, a part of our official 
subcommittee record so all those interested in the welfare of 
Gulf war veterans can have access to this important 
information. We already made the transcript of the London 
meeting available to the Department of Veterans' Affairs 
Research Advisory Committee on Gulf War Veterans Illnesses.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.001
    
    [GRAPHIC] [TIFF OMITTED] T9074.002
    
    Mr. Shays. So I ask unanimous consent to include in the 
record of this hearing, the verbatim transcript of the meeting 
held June 18, 2002, at Portcullis House, House of Commons, 
London; the written statements of those who participated in the 
June 18 meeting; and a letter from James Binns, chairman, VA 
Research Advisory Committee on Gulf War Veterans Illnesses 
Research dated October 7, 2002 accepting this material for 
review by that panel.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9074.003
    
    [GRAPHIC] [TIFF OMITTED] T9074.004
    
    [GRAPHIC] [TIFF OMITTED] T9074.005
    
    [GRAPHIC] [TIFF OMITTED] T9074.006
    
    [GRAPHIC] [TIFF OMITTED] T9074.007
    
    [GRAPHIC] [TIFF OMITTED] T9074.008
    
    [GRAPHIC] [TIFF OMITTED] T9074.009
    
    [GRAPHIC] [TIFF OMITTED] T9074.010
    
    [GRAPHIC] [TIFF OMITTED] T9074.011
    
    [GRAPHIC] [TIFF OMITTED] T9074.012
    
    [GRAPHIC] [TIFF OMITTED] T9074.013
    
    [GRAPHIC] [TIFF OMITTED] T9074.014
    
    [GRAPHIC] [TIFF OMITTED] T9074.015
    
    [GRAPHIC] [TIFF OMITTED] T9074.016
    
    [GRAPHIC] [TIFF OMITTED] T9074.017
    
    [GRAPHIC] [TIFF OMITTED] T9074.018
    
    [GRAPHIC] [TIFF OMITTED] T9074.019
    
    [GRAPHIC] [TIFF OMITTED] T9074.020
    
    [GRAPHIC] [TIFF OMITTED] T9074.021
    
    [GRAPHIC] [TIFF OMITTED] T9074.022
    
    [GRAPHIC] [TIFF OMITTED] T9074.023
    
    [GRAPHIC] [TIFF OMITTED] T9074.024
    
    [GRAPHIC] [TIFF OMITTED] T9074.025
    
    [GRAPHIC] [TIFF OMITTED] T9074.026
    
    [GRAPHIC] [TIFF OMITTED] T9074.027
    
    [GRAPHIC] [TIFF OMITTED] T9074.028
    
    [GRAPHIC] [TIFF OMITTED] T9074.029
    
    [GRAPHIC] [TIFF OMITTED] T9074.030
    
    [GRAPHIC] [TIFF OMITTED] T9074.031
    
    [GRAPHIC] [TIFF OMITTED] T9074.032
    
    [GRAPHIC] [TIFF OMITTED] T9074.033
    
    [GRAPHIC] [TIFF OMITTED] T9074.034
    
    [GRAPHIC] [TIFF OMITTED] T9074.035
    
    [GRAPHIC] [TIFF OMITTED] T9074.036
    
    [The referenced transcript from June 18, 2002 follows:]

    Mr. Shays. My Lords, Ladies and Gentlemen, Lord Morris of 
Manchester.
    Lord Morris. Congressman Shays, this is a moment to savor. 
I speak as a parliamentarian here at Westminster for the last 
38 years and I now invite you to proceed with and preside over 
the first ever Congressional hearing to be held in the British 
parliament. In doing so, I also welcome to London your 
distinguished Congress colleagues. Congressman Bernie Sanders 
and Adam Putnam are parliamentarians held in high regard in 
your country and with you they are most warmly welcome here at 
Westminster.
    I welcome also this morning the visit to the UK of Ross 
Perot whose humane concern for Gulf Veterans now in broken 
health and the bereaved families of those who gave their lives 
in liberating Kuwait is rightly honored by the ex-service 
communities both here and in the United States. His dash and 
dedication as a campaigner is an important resource for both of 
us.
    Christopher, the US and British troops fought side by side 
in the war to liberate Kuwait. So, it is entirely appropriate 
for the representatives of our two countries to work as closely 
as possible to give a parliamentary attachment to the problems 
of the Gulf Veterans with illnesses and the dependents of those 
who died since the conflict. Of all the duties it falls to 
parliamentarians to discharge, there is no more compelling 
priority than to act justly towards those who are prepared to 
lay down their lives for their country and the dependents of 
those who did so. There was no delay in the response of our 
troops to the call of duty in 1990, 1991; nor should there be 
any further delay now in discharging in full our debt of honor 
to them. That is much the best way, better than praise, than 
showing our regard in admiration of the men and women who 
served in the Gulf War.
    Congressman Shays, you did me the honor and also my good 
friend and colleague Bruce George as Chairman of the Commons 
Defence Committee of inviting us to join you on the dais on 
equal terms for the last meeting of your congressional 
committee inquiry into Gulf War illnesses. I take pride in 
joining you again today and to know Bruce George would again 
have been with me but for a previous commitment he is honor-
bound to discharge. He and I wish you God speed in all these 
proceedings at this historic hearing today. Congressman Shays.
    Mr. Shays. Thank you, Lord Morris. It is indeed a 
tremendous opportunity and privilege for me and my colleagues 
to be with you today in what we call an investigative panel and 
not to be technical with our rules in Congress we are not 
swearing our witnesses in today since we are overseas. We are 
on a fact-finding mission, this is an investigative panel, 
probably one of the first and it is wonderful to have the 
courtesy extended to us that you have extended.
    My colleagues, Congressman Bernie Sanders of Vermont on my 
left and Adam Putnam of Florida on my right and I deeply 
appreciate the opportunity to be with you here today. Our 
purpose is to continue an important dialogue about Gulf War 
veterans' illnesses with our friends here in Britain. Last 
January we invited the Chairman of the Commons Defence 
Committee, Mr. Bruce George and Lord Morris to sit with us in 
Washington as our subcommittee pursued its longstanding 
investigation into the status and prospects of research into 
the mysterious clusters of symptoms called Gulf War Syndrome. 
They suggested, and we immediately agreed, our inquiries into 
the health of coalition forces would be helped by hearing from 
veterans and health researchers in the UK. So we convened this 
investigative panel in the hope today we can ease the pain and 
improve the prognosis of US and UK veterans wounded more than a 
decade ago.
    The Scottish scientist, Sir James Dewar observed: ``Minds, 
like parachutes, work only when open.'' Then, sadly, too many 
minds on both sides of the Atlantic have been closed to the 
evolving sciences of environmental toxicology and multiple 
chemical sensitivities. These and other emerging fields of 
study hold the promise of answers to nagging questions of 
chronic ill-health suffered by many Gulf War veterans. These 
questions need to be pursued more openly and more vigorously.
    It is of little scientific relevance and of no comfort 
whatsoever, to note outbreaks of mysterious, putatively stress-
mediated diseases have followed all modern wars. That sad fact 
only proves one side was too blinded by victory to see the true 
costs of war, the other too vanquished to do anything about it. 
It is time to break that tragic cycle of myopic insensitivity--
and I stress the word insensitivity.
    Winston Churchill said, ``It is no use saying `We are doing 
our best.' You have got to succeed in doing what is 
necessary.'' Today we ask: What is necessary at this
juncture to advance productive research? Accurate diagnosis, 
effective treatment and fair compensation for sick Gulf War 
veterans. Our witnesses today will help us answer that 
important question. We look forward to their statements and to 
the opportunity to take advantage of their experiences, their 
insights and their considerable expertise.
    [The statement of Mr. Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.037
    
    [GRAPHIC] [TIFF OMITTED] T9074.038
    
    Mr. Shays. My colleagues and I want to thank all our 
witnesses and guests for joining us today. We sincerely are 
very grateful to you. I will introduce our panelists in a 
second but I would welcome an opening statement from Bernie 
Sanders.
    Mr. Sanders. Thank you very much, Chairman Shays and thank 
you very much for the work you have led us on over the last 
many, many years in taking on an establishment which for 
whatever reason has chosen not to see the truth in the 
suffering of so many soldiers in the US and the UK and, Lord 
Morris, I thank you very much for your involvement in this 
country.
    I would make a few points: It boggles my mind why in the US 
and perhaps in this country as well, men and women who have 
served their country, put their lives on the line, have been 
treated in the rather shameful manner in which they have been 
treated. Unfortunately, the history of how we treat veterans 
after they come home from war, whether it is radiation illness 
in World War II or Asian Orange in Vietnam, suggests there is 
something very, very wrong in how we thank the veterans who 
have served our country.
    Some very simple issues have to be addressed. In the US, 
with which we are more familiar, 700,000 men and women went to 
the Persian Gulf. They were people who were in good health, 
else they would not have been in the military and gone 
overseas. Today, approximately 125,000 out of those 700,000 men 
and women are suffering one or another symptom of Gulf War 
illness and what we have got to determine is whether in the US 
there are 125,000 people who are malingerers, who are liars, 
who are suffering from mass hysteria or are there 125,000 
people who are ill. In my view and I think I speak for our 
whole Committee, there are 125,000 people who are ill and at 
least 5,000 here in the UK.
    Everybody who has studied the issue understands that the 
Gulf War was a chemical cesspool, that the men and women who 
were over there were exposed to all kinds of toxins and that in 
addition to that many of them took anti-nerve gas agents in the 
US, pyridostigmine bromide and in addition to that took 
vaccines for anthrax.
    The good news is--to the degree there is any good news--
that there are some significant scientific breakthroughs taking 
place in research and we will hear from Dr. Haley and others 
tomorrow and for the first time in the US what we call ALS, 
what you call Motor Neurons Disease has been recognized by the 
US government and is compensable in terms of compensation from 
the government for those men and women who served in the Gulf 
because it turns out at the very least the likelihood is twice 
as great for those people who went to the Gulf coming down with 
ALS as those who did not. That is the first acknowledgement on 
the part of the US government although I strongly expect there 
will be more to come in the near future.
    So I want to welcome and thank very much all of our guests 
here, our friends in the UK for the work they have done and 
together we are going to find the cause of Gulf War illness and 
do everything we can, not only to get our veterans whole again 
but to increase the contact that exists in the civilian 
societies and the Gulf War veterans.
    Mr. Shays. Thank you very much. Mr. Putnam, who is the Vice 
Chairman of our Committee.
    Mr. Putnam. Thank you very much. As a freshman in Congress 
I am a newcomer to this fight that the Chairman and Mr. Sanders 
have carried on virtually since the day the troops returned 
home from the Gulf War. As the youngest member of Congress, it 
strikes me this is something of a generational issue, where we 
send our brightest and our best and youngest in society to go 
off and protect the freedom and liberties we all hold dear. It 
becomes very difficult to persuade them that those things are 
the right and proper tasks to take on when the government 
refuses to care for them after they come home, broken, 
battered, bruised and suffering.
    The purpose of this hearing and this effort in addition to 
keeping our promise to making them whole is to refocus the 
attention on Gulf War protection. Surely there have been 
lessons leaned since the first Gulf War that we can apply to 
the young men and women serving in Afghanistan today and sooner 
or later will be asked with great likelihood to return to Iraq. 
What have we learned about war protection? What do we know 
today that we did not know ten years ago about chemical and 
biological weapons? How have we interacted with our allies to 
produce better vaccines, better treatment for the various risks 
that all veterans face and the answer to that thus far has 
been: Nothing. We have learned virtually nothing that has 
changed the way we protect our soldiers, sailors, young men and 
women we ask to go over and sacrifice so much.
    So, I look forward to this hearing to collaborate with our 
tremendous friends here in the UK who jointly sacrificed with 
our nation, who jointly sent very young men and women to defend 
our civilization and who jointly have an obligation to care for 
them when they return, because when the ticker tape is swept up 
and the parades have ended, the costs, the obligations, the 
responsibilities to those veterans have not ended and I look 
forward to working with Lord Morris and the Chairman and 
working towards a resolution of our government to caring for 
our veterans. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Putnam. Let me say we have four 
panels. What we do back home in the US is that we invite our 
panelists to speak for five minutes. We are allowed to go over 
another five minutes and look at you in a sterner way. We do 
not have our typical clock which goes green, yellow, red. I am 
going to ask my staff to advise me of the time but we would 
clearly like you to be somewhere around five minutes, but if 
you go over a number of minutes your testimony it is so 
important to us that we would like to hear it, but in ten 
minutes I will stand up and create a scene.
    [Laughter.]
    [Mr. Perot enters.]
    Mr. Shays. I am going to say, Ross Perot, we are going to 
invite you to sit on this Panel and I am going to explain to 
our audience when he gets back--if you are willing to be under 
my leadership and control, Mr. Perot, I have given a statement 
as well as Adam Putnam and Bernie Sanders and I would welcome 
you to give in two, three or four minutes a statement to the 
group that is here and you will be last on the list of 
questions since you have no elective role here but as someone--
and let me say to our audience, Mr. Perot has been a champion 
in helping us break through the traditional approach of the 
government and medical community that has not wanted to look at 
Gulf War syndrome with the seriousness it deserves. When others 
have tried to use the medical community to demonstrate why our 
Gulf War veterans are not sick and not in need of attention and 
care, he has taken these matters up and made all the 
difference.
    Ross, I would explain this is technically not a legal 
hearing of the US. It is an inquiry by an investigative panel. 
We are not taking sworn evidence from our witnesses, but we 
will take the entire record. We only have one day. I am going 
to watch her [indicating court reporter] carefully and make 
sure she is okay. We will read into the record and have the 
same impact as if you were here. So, Mr. Perot, we welcome you.
    Mr. Perot. Let me make it very clear, this is not stress. 
This is troops in combat, wounded by chemical agents. Our 
enemies and in this current war on terrorism, have these 
chemical agents. One of these is Iraq. We know they have these 
chemical agents. In the war on terrorism we just had another 
instance today of car bombers. Think of the same people 
spreading chemical agents across the waters. That can easily be 
done. We do not know how to vaccinate people and to protect 
them from it now and we do not know how to treat them after 
they have been injected. These issues should investigated 24 
hours a day, seven days a week to develop these technologies 
and we can and I am sure we will, because it has gone far 
beyond all the troops now and to the entire population where 
literally millions of people can be impacted and the sooner we 
start, the sooner we will have the answer.
    So, I hope that we will follow Winston Churchill's words, 
``We need action this day.''
    Mr. Shays. Thank you, Mr. Perot. I will introduce the 
panel. If I do not say it correctly, you correct me. Larry 
Cammock is Chairman of The Royal British Legion Gulf War Branch 
and Gulf Veterans Association. Shaun Rusling, Chairman of the 
National Gulf Veterans and Families Association. Samantha 
Thompson, widow of Gulf War veteran, Nigel Thompson who died of 
Motor Neurons Disease in January, 2002. We welcome you here 
today, Ma'am. John Nichol, former RAF Flight Lieutenant 
Navigator, shot down and captured by the Iraqis during the Gulf 
War. We are delighted to have all four of you, we will start 
with you, Mr. Cammock and we look forward to hearing your 
testimony. At the back of the room, if you cannot hear, I want 
to know that. Mr. Cammock, you have the floor.

STATEMENT OF LARRY CAMMOCK, CHAIRMAN, THE ROYAL BRITISH LEGION, 
GULF WAR BRANCH, AND GULF VETERANS ASSOCIATION; SHAUN RUSLING, 
  CHAIRMAN, NATIONAL GULF VETERANS AND FAMILIES ASSOCIATION; 
 SAMANTHA THOMPSON, WIDOW OF GULF WAR VETERAN NIGEL THOMPSON; 
    AND JOHN NICHOL, FORMER RAF FLIGHT LIEUTENANT NAVIGATOR

                   STATEMENT OF LARRY CAMMOCK

    Mr. Cammock. I am Chairman of the Gulf Veterans Association 
and Chairman of the Royal British Legion Gulf Veterans Branch. 
I would like to thank you for inviting me to attend this 
meeting and allowing me to present information for 
consideration by the Committee. It is now 11 years since 
veterans like myself came home from the Gulf War and first 
started to experience the symptoms that are now called Gulf War 
Syndrome.
    In the first two years the symptoms quickly progressed 
amongst veterans both here and in the United States. The death 
toll kept rising in both countries. Denial has been the key 
word and epidemiological studies the road to follow with the 
direction focusing on psychological conditions. We have in the 
UK over 5,000 veterans in receipt of a war pension for their 
conditions, which they first suffered from on their return from 
the gulf. To date there are 539 veterans who have died from 
their conditions or from links to their conditions.
    Gulf veterans would like a public inquiry to take place and 
hopefully find the answers to the many questions that have been 
asked of the Ministry of Defence. The veterans associations, 
the Royal British Legion and individuals have asked these 
questions. They have to date been given non-answers such as 
``We are investigating the full issue of gulf illness'' and 
``Gulf War Syndrome does not exist.''
    There has been a distinct lack of funds, which would enable 
the establishment of diagnostic protocols and treatments for 
each veteran. This responsibility the veterans feel lies with 
the Government. They should take care of their ex-service 
personnel. The lesson of the last 11 years is that more could 
and should have been done for this serious issue.
    [The statement of Mr. Cammock follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.039
    
    [GRAPHIC] [TIFF OMITTED] T9074.040
    
    [GRAPHIC] [TIFF OMITTED] T9074.041
    
    Mr. Shays. You take my breath away, sir. Thank you very 
much.

                   STATEMENT OF SHAUN RUSLING

    Mr. Rusling. Thank you very much, Chairman. Before giving 
my testimony to this honorable Committee, I would like to thank 
the members for the invitation to the National Gulf Veterans 
and Families Association to give our evidence over the illness 
now known and recognized as Gulf War Syndrome.
    Could I, on behalf of my members, offer our gratitude and 
thanks to the Rt Honorable Lord Alf Morris for his unswerving 
support and his continued efforts to help British Gulf War 
Veterans who are suffering ill health from fighting for their 
country in a war that is clearly recognized as the most toxic 
war ever fought and at this point clearly mark out for the 
committee our most sincere sadness that we have been abandoned 
by our country and that successive governments since the Gulf 
War have adopted a policy that is based on ``Don't look, don't 
find and cannot see.''
    The Ministry of Defence set up the Gulf Veterans Illness 
Unit in 1996 after the former Permanent Secretaries of State, 
Sir Richard Mottram and Dr. Edgar Buckley came under scathing 
criticism by the Defence Committee under Mr. Menzies Campbell 
QC MP and Mr. Bruce Geoge MP. On this matter I refer to Hansard 
and the Defence Committee reports from that date and to the 
present. Evidence has been presented to the said committee in 
written and verbal format by the former Chairman Major Ian Hill 
(deceased) and myself the current Chairman of the National Gulf 
Veterans & Families Association.
    It would be very easy to point out several Members of 
Parliament and blame them. However they have only repeated the 
Brief of government policy which is one of cover up of (GWS) at 
all cost and to ensure that no responsibility for any actions 
or none actions taken at the time of war is the responsibility 
of anyone. The attitude of the MOD is one of go and seek 
charitable help and hand outs. This crass attitude to those of 
our armed forces servicemen and women who in the 21st century 
have families to raise and mortgages to pay and are unable to 
do so because thy are ill, because they fought for their 
country, will devastate our fighting ability in the future.
    If safeguards are not in place to ensure that ill and 
injured soldiers get the best medical care and disablement 
pensions etc, then politicians should not send men and women to 
war in the 21st century or only at the cost of invasion. And in 
taking that action it has been paramount to the Ministry of 
Defence that every issue is spun and covered up by civil 
servants of the GVIU working on the same brief refuting and 
covering every issue up of any significance.
    The MoD have been aided and abetted by the DoD to the point 
of American dollars paid by the DoD to assist in the cover up 
of GWS by employing medical doctors here in the UK, which are 
Treasury Solicitors medical expert witnesses. These doctors of 
the Kings College cannot claim to be unbiased they are in our, 
the veterans' opinion, in a position of conflict of interests 
and it is not our interests that they are concerned about.
    The evidence is of poor medical value and used only in one 
manner that is to be the use of epidemiology to lose our 
illness in amongst the general populous and to down grade our 
illness by the use of comments in medical papers like, Three 
times more likely, to be ill as any other troops. This type of 
evidence, which has been funded by the DoD and MoD is nothing 
other than psychobable and government ploy.
    The best medical evidence and most reliable that we have 
seen are the nerutological findings of Dr. Robert Haley et al 
based on proper medicine and not on form filling and paper 
shuffling of figures. This evidence is supported by the 
diagnosis of ill Gulf War veterans the length and breadth of 
the UK diagnosed with Gulf War Syndrome, based on physical 
medical investigation based on medicine by medical doctors not 
spin doctors from the MoD whose interests lie elsewhere.
    We here at the National Gulf Veterans & Families 
Association have paid for our own investigations into our ill 
health because our government has chosen to turn their back on 
us. We have looked into the issue of organophosphates with 
blood tests from Manchester University, which Dr. Mackness will 
be speaking to you about later. In addition to the OPs we have 
funded our own tests into vaccines given for the Gulf War at 
the Bremen University Germany, also at The Tulane University, 
New Orleans, USA.
    Tests have been carried out at three independent 
laboratories for depleted uranium in the urine of British Gulf 
War veterans. The Waterloo University, Canada, the Memorial 
University, Canada and the NERC isotope geosciences laboratory 
here in England in the United Kingdom which I have presented 
the results to you gentlemen today, which produce the results 
on tests carried out in the UK. All three have shown the 
presence of depleted uranium in the Gulf veterans' urine 11 
years after the Gulf War. The controls used were found to be 
negative. This evidence shows a significant exposure at the 
time of the Gulf War. Professor Hooper will comment on these 
matters, that will be this afternoon, in a scientific manner.
    Mr. Shays. Can I interrupt you--can you all hear at the 
back of the room?
    We will ask you all to speak a lot louder.
    Mr. Rusling. In addition to depleted uranium being found 
extreme enrichment of 236U was also clearly present in the bone 
of Mr. Michael Burrows and in the urine of Mr. Shaun Foulds, 
leaving the question: Were the coalition troops the first to be 
exposed to ``dirty bombs'' in 1991?
    For your final reference I refer to my own pensions appeal 
tribunal decision held on 19th April 2002 some 9 years after 
application, whereupon every possible excuse and dirty trick 
was used by the Veterans Agency, formerly the War Pensions 
Agency, from allowing my appeal to be heard by an independent 
tribunal. I attach a copy and I look forward to your questions.
    [The statement of Mr. Rusling follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.042
    
    [GRAPHIC] [TIFF OMITTED] T9074.043
    
    [GRAPHIC] [TIFF OMITTED] T9074.044
    
    [GRAPHIC] [TIFF OMITTED] T9074.045
    
    Mr. Shays. Thank you very much.
    Mrs. Thompson, wonderful to have you here. I just want you 
to know that the questions will be friendly but we will learn a 
lot from them. So, you can feel very welcome here and it is 
truly a privilege to have you here today. You have the floor.

                 STATEMENT OF SAMANTHA THOMPSON

    Mrs. Thompson. Nigel Thompson died in January 2002 after a 
long and courageous battle against Motor Neurons Disease (ALS). 
He was just 44 years old and leaves a widow, Samantha and a 
seven year old daughter, Hannah who is here today.
    Nigel was a Petty Officer in the Royal Navy Fleet Air Arm 
and served in the Gulf War in 1991. Shortly after returning 
from the Gulf he started displaying the symptoms of Motor 
Neurone disease. Nigel always believed his terminal condition 
to be attributable to his active service in the Gulf. Right up 
to his death he fought tirelessly on behalf of all Gulf War 
veterans as part of the campaign for recognition of Gulf War 
illness. Nigel also repeatedly called for an independent public 
inquiry into what went wrong during Operation Desert Storm that 
left so many military personnel ill or dying.
    Nigel joined the Royal Navy in September 1973 aged 16. As a 
member of the Fleet Air Arm he spent most of his service career 
with commando helicopter squadrons. His service at sea included 
tours on numerous ships including HMS Hermes, the Fearless, 
Cherry B and HMS Glamorgan. He also saw active service in 
Northern Ireland, the Gulf and Bosnia.
    Tragically in 1993 he was diagnosed with the terminal 
condition Motor Neurone Disease and left the Navy in 1994 after 
20 years service reaching the position of Petty Officer. He 
would have undoubtedly been promoted to Chief Petty Officer if 
it were not for his ill health, as he was on the promotion 
signal for that year.
    Nigel always maintained strong links with the Royal Navy 
never blaming them for what happened to him. He worked 
tirelessly on behalf of other Gulf War veterans and was a huge 
supporter of the Royal British legion in every way. Despite his 
condition and failing health, Nigel helped to raise 
<brit-pound>250,000 for the Legion and received the Wilkinson 
Sword of Peace from Prime Minister Blair in 1998 for his 
efforts.
    There were approximately 50,000 British service personnel 
who served in the Gulf conflict. As a military operation it 
appeared a stunning success; unfortunately though on returning 
home a substantial number of veterans became ill. Very early on 
it became clear to Nigel and many others that a number of 
potentially fatal mistakes had been made in the pre-treatment 
of our troops against a possible chemical or biological attack 
by the Iraqis. Nigel could always remember just how real the 
threat of an Iraqi chemical attack actually was. This being the 
case every means of protecting our troops had to be taken. 
However, before authorizing the use of NAPS tablets, an 
unlicensed drug and then totally ignoring the warnings of 
organophosphates and anthrax the MoD were guilty of the worst 
kind of negligence.
    Taken together these three undisputed facts alone show 
scant disregard for the long term health of our troops, add to 
that the question of why no such problem surfaced after other 
recent conflicts, then you have to question the policy of mass 
inoculations. Put all of this together and you can see why 
veterans have concerns.
    The MoD will say that they acted in the best interests of 
our troops but it appears that not enough research was 
undertaken prior to the administration of the drugs given to 
protect them against the very real threat they faced in the 
desert. Nigel always maintained that had his condition been 
triggered by something that happened in the Gulf he would far 
rather it had been the enemy responsible than his own side. But 
sadly that does not seem to be the case.
    Nigel very much doubted that his name would ever appear on 
a plaque dedicated to the people killed in the Gulf War but he 
was adamant that the Gulf War was going to be responsible for 
his death just as certain as if he had been killed in action.
    The people working in Whitehall at the MoD today are 
exactly the same people who worked there when faxes about 
anthrax went missing and written warnings about the overuse of 
OPs were being ignored. The only way the whole truth will ever 
come out is if the Prime Minister orders a full and independent 
public inquiry.
    Nigel would often speak of the photo inside the front cover 
of the Royal Navy Divisional Officer's handbook. It is of a 
young sailor and wren. At the bottom of the page it says ``the 
most important factor.'' He always said it was a pity that the 
people making the decisions at the Ministry of Defence hadn't 
bothered to look at the photo. It seemed to Nigel that the day 
you handed in your ID card the MoD washed their hands of you 
and it was the Royal British Legion who were thankfully there 
to pick up the pieces. He would say however that from now on 
the MoD must realize that the men and women who put their lives 
on the line for this country will be knocking on their doors if 
problems ensue.
    The Gulf War has to be the last time something like this 
happens. British troops deserve better, they are not just 
numbers but people, intelligent people and should start being 
treated that way.
    Life has been incredibly difficult since Nigel died almost 
five months ago. Our lives have literally been turned upside 
down. Everything revolved around Nigel and his care; my days 
were spent caring for him practically 24 hours a day. 
Thankfully a wonderful team of carers assisted me in this 
privileged task towards the end, as his needs increased. Now 
there is no care to be done for Nigel, no carers in our home or 
wheel chairs. It is a very quiet house now.
    Our daughter misses her father immensely and this Sunday 
will be very hard for her, as it will be our first Father's Day 
without Nigel. We plan to visit West Malvern where he is buried 
so Hannah can lay some flowers on her father's grave. A most 
heart-breaking event for a seven year old.
    As she gets older, Hannah will undoubtedly start to ask 
questions about her father's illness and untimely death. I only 
hope I can give her the answers to these questions. I hope I am 
still not asking them myself.
    [The statement of Mrs. Thompson follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.046
    
    [GRAPHIC] [TIFF OMITTED] T9074.047
    
    [GRAPHIC] [TIFF OMITTED] T9074.048
    
    Mr. Shays. Your husband is a hero, ma'am. Your Dad, young 
lady, is a hero to this country and to the world of freedom.
    Flight Lieutenant Nichol?

                    STATEMENT OF JOHN NICHOL

    Flight Lieutenant Nichol. I am John Nichol and during 15 
years of service in the Royal Air Force I served in the 
Falklands and saw action in Bosnia and of course during 
Operation Desert Storm, the Gulf War in 1991, when I was a 
navigator flying Tornadoes. On the first day of that war my 
aircraft was shot down and I was captured by the Iraqis and I 
spent seven weeks as a prisoner of war. So, my experiences of 
Desert Storm include all of those experienced by service 
personnel during that conflict and additionally the trauma of a 
brutal interrogation and torture by my Iraqi captors.
    Although my war was brutal, I returned to my family and 
friends with my senses and my health intact. Some of my friends 
did not return and many of my colleagues are still suffering 
the effect of that war 11 years on.
    I retired from the Royal Air Force in 1996 and now have a 
career in the media and as an author, having published seven 
books. I have maintained my contact with the Services through a 
number of different charities and I am currently the President 
of the Gulf War Branch of the Royal British Legion. I am also a 
member of the Inter Parliamentary Group formed in 1994 to help 
present a credible case to have Gulf War veterans' concerns 
resolved. Many Gulf War veterans have grievances regarding the 
way they were treated following their return from the conflict, 
particularly those who subsequently left the Armed Forces.
    Almost as soon as the war ended, many veterans started to 
complain of ill health for which they could find no 
attributable cause. At first, this started as a trickle but 
then became a steady stream and currently of the 50,000 British 
personnel deployed to the Gulf, in the region of 10 percent, 
5,000 previously fit men and women are reporting ill health 
with a variety of symptoms. Most importantly, they belief their 
varying problems are directly linked to their service in the 
Gulf. Worse, they have suffered considerable angst due to the 
way in which they have been treated and because of the lack of 
recognition regarding their situation.
    The epidemiological studies conducted into the health of 
Gulf War veterans have confirmed that those who served in the 
Gulf display more ill health than one similar group that did 
not deploy to the Gulf and another group drawn from those who 
served in Bosnia. It is my believe and that of the Gulf War 
Group, that the circumstances in this conflict were markedly 
different to recent conflicts elsewhere and that it is some of 
the very actions taken to protect those of us who served there 
that could have produced the conditions so prevalent amongst 
veterans who complain of ill health.
    My suspicion and the suspicion of many others, is that some 
or all of the things that were different regarding deployment 
and service in the Gulf are responsible for the situation. What 
was so different?
    First, we had the multiple immunization program (some 
veterans were given injections for up to 14 different 
conditions in the space of 2 weeks.) Secondly, we had the issue 
of pyridostigmine bromide (NAPS tablets) as protection against 
chemical and biological agents. There was the exposure to smoke 
when withdrawing Iraqi troops fired the Kuwaiti oil wells. 
There was also the possible exposure to organophosphates used 
as pesticides during deployment. There was also the possible 
exposure to chemical weapons, particularly those who were under 
the Khamisiyah plume when it was destroyed. Then the exposure 
to depleted uranium from munitions expended mainly by Allied 
Forces.
    The possible inter-reaction of these many factors is 
incalculable. But, if we look only at the immunization program, 
if 50,000 individuals were inoculated against measles it would 
not be unusual for a small percentage to show symptoms of an 
adverse reaction. Therefore, if the same number are immunized 
against 14 different diseases in the space of two weeks, there 
is no telling how their bodies might react. All of the other 
items I mentioned could have made a number of veterans unwell 
in their own right.
    Most of these factors were not present in recent conflicts. 
Indeed I can remember experiencing none of them during my 
deployment to the Falkland Islands in 1982 or during my service 
over Bosnia in 1993. And subsequently, the level of ill health 
amongst veterans from these conflicts seems to be much lower 
than amongst their colleagues from the Gulf War.
    In the main, all the action taken by our Ministry of 
Defence, the immunization program, the use of pesticides etc., 
to protect those of us who served in the Gulf was done in the 
best interests of the Gulf veterans. However, when the troops 
returned and started to complain of medical problems, the MoD's 
reaction was far from satisfying. The initial response was to 
state that they were open-minded about the existence of a 
problem. But that supposed open-mindedness was usually tinged 
with cynicism and very little was done to assist those who were 
becoming more unwell.
    Some examples include the inadequate debriefing of those 
returning from the conflict, particularly reservists called 
from civilian life into action. There was the apparent loss or 
destruction of individuals' medical records. There was the 
initial denial by the MoD that organophosphates had been used 
as pesticides; sluggishness in establishing a medical 
assessment program. It took four years to place this on a full 
time basis and even now there is great suspicion from veterans 
with regard to its effectiveness.
    There is also a lack of monitoring and specific treatment 
from Gulf War veterans. It is only recently that our country's 
general practitioners, which all veterans have to turn to once 
they have left the service, have been advised of the possible 
conditions veterans may present with. And with the demise of 
the Service hospitals there is virtually nowhere where the ex-
Service community can be referred for priority treatment. We 
believe that this is also a problem being experienced by those 
currently serving in the Armed Forces where drastic cuts in the 
Service medical provisions are leaving our Service personnel 
exposed to problems not experienced in the past.
    The veterans themselves departed for the Gulf in an ``A1'' 
condition of health. They now expect, indeed they have a right, 
to have their problems recognized and addressed and where 
mistakes have been made, this should be acknowledged. In 
comparison with our American colleagues, the British veterans 
believe that little has been done to address their problems. 
For instance, ongoing medical support, particularly for those 
who have left the Armed Forces is sadly lacking. Many veterans 
have had real difficulty obtaining their full medical records. 
Some have suffered wilful obstruction.
    British veterans are dependent on our National Health 
Service recognizing and addressing their problems, whereas our 
American colleagues have the benefit of veterans' medical 
support. Difficulties have arisen for some veterans in 
achieving full recognition of their condition being 
attributable to their Gulf service and this has delayed or 
reduced their level of war pension.
    The results of the errors that have been made and the 
inadequate provisions to support veterans have left 
considerable disquiet amongst those who served in this theater 
of war. In addition, the needs of many that have fallen on hard 
times have yet to be answered, even as far as the issue of a 
sensible level of war pension. In an offensive snub to those 
who have risked their lives, many veterans are forced into an 
undignified fight for a pension which should be offered to them 
with pride.
    Veterans feel neglected and believe that the only answer is 
for the Prime Minister to approve the establishment of a public 
inquiry in which all of these issues might be openly reviewed 
and the lessons learned actioned quickly. If there is nothing 
to hide, why shy away from an open inquiry to establish why our 
veterans are dying?
    To finish, I heard this anecdote from an American 
campaigner:
    ``If 100 people went to a banquet and during the night one 
got sick--you would never know the cause. But if that same 100 
people went to a banquet and 10 of them became sick 
afterwards--you might never know what caused the sickness--but 
you can be damned sure that the banquet was to blame.'' I am 
one of the lucky ones, I didn't get sick, butyearsyy of my 
colleagues did and some, as you have heard today have died in 
tragic circumstances. Two British governments how now said that 
there is no evidence that Gulf War Syndrome or sickness or 
whatever we decide to call, it exists. Yet how can we prove it, 
how can we recreate what happened 11 years ago? Are we to take 
a group of volunteers, expose them to a cocktail of drugs, 
force them to breathe the smoke from oil fires, feed them NAPS 
tablets, spray them with pesticides, then expose them to 
depleted uranium and chemical weapons? We can never recreate 
those conditions.
    I suspect we may never know what happened to our people 11 
years ago during Desert Storm, but I do know this: The men and 
women of our Armed Forces have always been willing to make the 
ultimate sacrifice and give their lives in the service of their 
country. With the Gulf War long over, many are still making 
that ultimate sacrifice. And in the aftermath of the conflict 
some of our political leaders are too quick to detach 
themselves from us. I would expect so much more than that.
    Congressman Putnam, you said earlier on the tickertape has 
been swept up, the victory parades are over, but 11 years on, 
the veterans are sick, still dying and they deserve better.
    [The statement of Flight Lieutenant Nichol follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.049
    
    [GRAPHIC] [TIFF OMITTED] T9074.050
    
    [GRAPHIC] [TIFF OMITTED] T9074.051
    
    [GRAPHIC] [TIFF OMITTED] T9074.052
    
    [GRAPHIC] [TIFF OMITTED] T9074.053
    
    Mr. Shays. A very powerful statement, Lieutenant, powerful 
particularly given you are a hero of the Gulf War and you are 
not speaking for yourself, you are speaking for all those men 
and women you served with.
    Mrs. Thompson, I was thinking after you had completed, 
wouldn't it have been nice if we had got here before January 
2002 to hear directly from your husband; but how proud your 
husband would be to have heard you today.
    Mr. Rusling and Mr. Nichol, you have been speaking out for 
so long on this topic and it is a privilege to have you here. 
Feel free to take ten minutes, we have time and we came here to 
make sure we got the information we needed so we are not 
leaving until we get the questions.
    Mr. Sanders. Thank you, Mr. Chairman. Thank you all four 
for your testimony. I want to say the struggle you are waging 
here is terribly important for tens of thousands of American 
soldiers suffering the same problems. It is important we work 
together and I thank you all very much for what you have just 
said.
    Let me start off, I am not an expert on the British 
military but I assume the men and women you sent off were 
strong and well-trained?
    Mr. Shays. There was no answer but everybody's head went up 
and down.
    Mr. Sanders. Mr. Cammock, in your statement you mentioned 
that you held a meeting and that 500 veterans came to that 
meeting complaining of a variety of illnesses and since that 
time 98 people who served in the Gulf have taken their own 
lives?
    Mr. Cammock. That is correct.
    Mr. Sanders. I would assume if you started off with a 
healthy group of people trained in the military that these 
numbers are astonishing. Can you give me some explanation how 
so many people have complained of illnesses and why so many 
people have taken their own lives from what was initially a 
very healthy group of people?
    Mr. Cammock. Initially, the first meeting that formed the 
Association was due to a reunion--
    Mr. Shays. Can I ask you to speak a little louder?
    Mr. Cammock. Sorry. Initially the first meeting of veterans 
from the Gulf was held every 12 months, it was an annual 
reunion for the veterans who went to the Gulf and we lost quite 
a few of the men due to a friendly fire incident. The regiment 
concerned was a local regiment in North East England. They held 
their reunion and the members of that regiment were surprised 
that some of their associates coming into the reunion obviously 
showing signs of illness, some of them on crutches, some with 
walking sticks and one or two were confined to wheelchairs. 
That was in the 12 month period coming back from the Gulf.
    From that, two of the people who were at that reunion 
contacted local MPs and they queried what was wrong with these 
people to begin with. From that, the two MPs put a notice into 
the local evening papers asking for other veterans who had 
served during the Gulf War who were showing signs of illness or 
who were worried about any aspects of the Gulf War to attend a 
meeting that was arranged at a local venue. They expected 
roughly about 50-100 people to turn up. 500 turned up, not only 
from the local area but from around the country. Those people 
that attended from around the country also came with 
information that there were other people in their own local 
areas suffering the same condition.
    Mr. Sanders. Let me interrupt you. My State is in the 
northern part of our country where people from the military are 
not very happy to come forward. ``I was not shot, I was not 
wounded but I'm feeling pretty sick.''
    Mr. Cammock. That is exactly the same. It is only today I 
spoke to a senior officer who is still serving and he has got a 
condition that other veterans have had. He has spoken to his 
medical officer and his medical officer says it is his age.
    Mr. Sanders. You suspect there are still people in the 
military not coming forward?
    Mr. Cammock. Yes, they are feeling shoved away by their 
medical officer saying there is not a problem, the MoD is 
telling them there is not a problem and there are other things 
to look at. It could be stress, it could be age, it could be 
all kinds of thing.
    Mr. Sanders. Thank you. Let me go to Mrs. Thompson and 
thank you very much for your testimony. I don't know how to 
phrase this--let me phrase it this way: Mrs. Thompson, if you 
were in the US now and were an American citizen, your husband's 
condition would have been acknowledged as having been caused by 
participation in the Gulf War. You are a British citizen and 
that is not the case. How do you respond to the fact that in 
the US finally, I should say after many, many years, we have 
finally acknowledged the condition that your husband passed 
away from but that is not the case right now in the UK?
    Mrs. Thompson. It is very sad for the people suffering not 
to have the condition recognized as attributable to Gulf War 
service because I believe there are several servicemen who died 
from Motor Neurons Disease and that it is way above the amount 
that should have come back. I think obviously the news is 
welcome from America that progress has been made and I can only 
hope the Mod and other people will follow the progress made.
    Mr. Sanders. Since the acknowledgement in the US that ALS 
is attributable to service in the Gulf, has there been a 
response from the British government to you and other families?
    Mrs. Thompson. Not that I am aware of to me and other 
families which is quite sad. You feel forgotten most of the 
time.
    Mr. Sanders. You are not forgotten. Let me ask Lieutenant 
Nichol and Mr. Rusling, both of you were appropriately in 
office and let me tell you we have heard almost exactly the 
same testimony in the US time and time again of American 
veterans who were frustrated, angry and disappointed by the 
lack of response of their own government to their particular 
problems. Given the fact that so many people have been hurting 
and in some cases dying in the UK, why is the government so 
reluctant to say ``Yes, we understand you have a problem; yes, 
we will spend the money to find the cause of the problem; yes, 
we will compensate veterans. How can we be of help to you?'' 
Why do you think the government has not responded in that way?
    Flight Lieutenant Nichol. I have no idea and I think 
perhaps a public inquiry might help to establish that, if there 
is nothing to hide, nothing to worry about, nothing to cover 
up. We are told so many times we are paranoid, then have a 
public inquiry, have an independent inquiry so people like Sam 
don't have to go through what they suffered. Larry should not 
have to suffer as he is suffering. Veterans should not have to 
come begging for help 11 years after the end of the conflict. 
It really is a tragedy that we treat our veterans in this way.
    Mr. Rusling. I think though that that will set a precedent 
to look at other war veterans and do likewise with them, look 
at them in another manner.
    Mr. Sanders. You think there is a financial aspect?
    Mr. Rusling. Yes. I believe the matter would have been 
dealt with a long time ago.
    Mr. Sanders. Thank you all very, very much, Mr. Chairman.
    Mr. Shays. I would say in some cases it is a physical 
element but also we rejoice that there were so many that came 
back safe and so few who were killed or wounded and I think 
that it is difficult for us to come to grips with the fact that 
more came home wounded than we wanted to acknowledge.
    Mr. Rusling. I think also it is the position of 
accountability and certain decisions had to be made at the 
time. Some were errors that were made and perhaps they have to 
be accountable for their actions. That is very sad for us 
because we are carrying that back now.
    Mr. Shays. A nice point. It is not dissimilar as Mr. 
Sanders said. Your testimony could almost be made in the US. 
There is not much difference. Mr. Putnam, you have a point?
    Mr. Putnam. Thank you very much. This testimony is 
virtually identical to the US. Two weeks ago I had a similar 
forum in my constituency where I had over 200 of my 
constituents meeting this group of National Guards come back 
with very built-in illnesses. Young men in the prime of their 
life who came back with the illnesses of 80 year olds. Live 
conditions, neurological diseases. In their case we cannot 
identify what it was. They had to use a certain paint to 
prepare the equipment and they were ordered to abandon all 
procedures, to abandon all safety equipment to expeditiously 
complete their task. Chairman, Ross, you are the heads of your 
respective organizations. In similar organizations there are 
other coalition partners and do they report similar stories?
    Mr. Rusling. Yes there is a similar organization in Canada 
and Australia. The numbers are far smaller but they have 
exactly the same problems as we have.
    Mr. Cammock. The Norwegians and French, they have the same 
sort of problems.
    Mr. Putnam. What about the Kuwaitis, do we know anything 
about that?
    Mr. Cammock. They used to acknowledge it initially but it 
sort of tailed off but the last report we had was that there 
was a large amount of illness in the Kuwaiti population, 
certainly with lung cancer.
    Flight Lieutenant Nichol. I think Lord Morris has got the 
most information on how the Kuwaitis are suffering as well. As 
I understand it they are suffering in high numbers in very 
similar if not identical conditions to what our veterans are 
suffering.
    Mr. Putnam. Those of you who were given a range of vaccines 
and injections, were they administered evenly throughout the 
services or did different Commanding Officers take different 
processes to dispensing those treatments and vaccines?
    Flight Lieutenant Nichol. Larry and Shaun can talk about 
the large numbers but from my perspective as an RAF officer we 
were given the option of taking the vaccine and I remember 
specifically turning down having anthrax injected into my body. 
It was a procedure, it was your own decision if you wanted it 
and at my level a large number of people chose not to take 
these inoculations.
    Mr. Rusling. We received no choice in the matter. We were 
given a time to parade for our vaccinations and we did so and 
at the time we were vaccinated, a couple of days later some 
more vaccine. Two days later, some more vaccine and we were not 
given a choice at all.
    Mr. Cammock. Lt. Nichol is quite right there about the RAF 
giving the option about the inoculation, the reason being that 
they realized that a flight crew, you could not afford to have 
a flight crew ill through inoculations and, therefore, it is 
entirely up to the individual if he accepted; but on the 
service side, it was compulsory. On the first day there were 
twelve inoculations all at the same time. A few days later then 
you went to a different barracks for other inoculations and as 
far as the Gulf was concerned, if you were in a transport combi 
half-way up the MSR, there is a refuelling base run by the 
Americans. If you were unlucky enough to get there before 4:00 
o'clock and if you got no pump and out by 6 you got what the 
Americans got so you could have had one in the morning and 
another at the base in the afternoon.
    Mr. Putnam. Of those twelve you had no choice?
    Mr. Cammock. None whatsoever.
    Mr. Putnam. And there was no informed reason?
    Mr. Cammock. No.
    Mr. Putnam. But, with the RAF it was different?
    Mr. Cammock. I have seen American air people who were ill 
and they decided they could not afford to have our air crew the 
same.
    Mr. Putnam. Did the Service keep records of who accepted 
certain vaccines and who rejected them?
    [Laughter.]
    Mr. Rusling. In 1996, Mr. Putnam, I wrote to the MoD asking 
for a copy of my medical documents and I received a letter back 
from Brigadier McDermott advising that the inoculations I had 
been given in the Gulf were classified secret and that has 
remained the same, nothing has been recorded.
    Mr. Shays. That could conspire in the US, to give you that 
as an explanation: Top secret.
    Mr. Putnam. That is not a term we use in the South, Mr. 
Chairman.
    [Laughter.]
    Mr. Putnam. Were you outfitted for chemical launch?
    Mr. Cammock. Yes.
    Mr. Putnam. Did they ever go off?
    Mr. Cammock. Constantly.
    Mr. Rusling. All the time.
    Mr. Putnam. And were they all positive?
    Mr. Cammock. Yes.
    Mr. Rusling. Allegedly. We don't believe so.
    Mr. Putnam. It was the MoD--
    Mr. Cammock. One of my colleagues, in 1996 he died of 
chemically induced leukaemia and he was one of the guys who had 
to unmask and do the screen test and I can't really believe 
there was nothing at all. Can I make a point. On first March, 
1991, all of our MPC equipment was removed. Our chemical suit 
was taken off us, given to the Iraqi prisoners of war. On 1st 
March we had no chemical ability of protecting us at all and 
from 4th-10th March one of the alarms went four times. So we 
were walking about in shorts and flip flops when munitions were 
being blown up. You could not put them on because they were no 
longer there. It is absolute madness. Some troops went into a 
minefield at the end of the battle, the battle had been won, it 
is just madness, absolute madness.
    Mr. Putnam. Lieutenant, has the BCE equipment, the alarms, 
the sensors of any of those names changed in 11 years since the 
war?
    Flight Lieutenant Nichol. I am not an expert in chemical 
weapons but I can tell you on the first day of the war when the 
sirens went off and we were based at Bahrain, some considerable 
distance from the conflict itself, the chemical sirens went off 
as well and the answer was, ``Well the batteries are flat.'' 
So, the warning for the flat battery is the same as for a 
warning of a chemical attack. I don't know if one can say 
procedures have changed in the on-going 11 years but I am 
certainly not aware that they have.
    Mr. Rusling. Our systems are still the same alarm systems 
and we have contacted a company near Nottingham who advised 
they were not allowed to speak to us because it was a matter of 
secrecy.
    Mr. Putnam. Let me ask you one final question. When you 
mentioned the presence of testing for depleted uranium and the 
presence of 236, could you elaborate on that?
    Mr. Rusling. Well, I don't know if you have these on the 
table. Do you have the test results which have come back into 
the UK from the last hearing in the US?
    Mr. Shays. We have it.
    Mr. Rusling. What actually happened is we sent samples off 
to Canada to identify CPUs and we sent them to a gentleman 
called Harry Sharma. He carried out tests and he recommended 
that we should have tested from gastechtomotery and he 
recommended that that be done also in Canada. So we sent the 
phials off to him. Dr. Sharma reported back depleted uranium. 
The MoD here in the UK said, ``Okay, fine, you have done these 
tests. However you have no control room and you have not had 
them done in the UK'' so we now have a laboratory accepted by 
the MoD and we have them tested in the UK and here are the 
tests and the results.
    All I can say as a soldier I have been exposed to depleted 
uranium and I would be pleased to speak to Dr. Haley with 
regard to neurotoxic properties because I was cutting the 
equipment on the casualties with shears in recent succession 
and I was breathing all that stuff in off the casualties. So 
most certainly I would like to know.
    Mr. Sanders. Let me see if I understand. Mr. Rusling, you 
and a number of other veterans sent your urine off to a 
laboratory in Canada?
    Mr. Rusling. Yes.
    Mr. Sanders. As of a month ago, it reported that you had 
depleted uranium?
    Mr. Rusling. No, we sent the samples in 1998 to Canada and 
we progressed between the two laboratories, Waterloo University 
and Memorial University, testing out samples which were 
positive.
    Mr. Sanders. In 1998?
    Mr. Rusling. Yes. What we needed to do then was get a 
laboratory in the UK. There is an oversight committee in the UK 
set up. The MoD have only just got around to getting this 
going. We are not prepared to wait for the MoD to bring itself 
kicking and screaming.
    Mr. Sanders. Tell us again. You told the MoD you have an 
accredited laboratory saying you have depleted uranium in your 
urine, seven years?
    Mr. Rusling. 11.
    Mr. Sanders. Well now, what did they say?
    Mr. Rusling. We have had Dr. Jacob to speak from the 
States, Dr. Harry Sharma. Dr. Sharma spoke in 1999 at the 
Defence Committee and pointed out to the Defence Committee that 
the MoD could not refuse the findings in the Canadian 
laboratories because they had not done any tests whatever.
    Mr. Sanders. So they confused--
    Mr. Rusling. They confuse everybody about the vaccines, 
spinning.
    Mr. Sanders. And they will not do the same tests?
    Mr. Rusling. No testing, none at all, nothing.
    Mr. Shays. Thank you. At this time we will go to Lord 
Morris and then Ross Perot and then we will come to myself and 
we may come back a second round just briefly and then we go to 
the next panel.
    Lord Morris. I am very moved by your presentation, Samantha 
Thompson, with Hannah here this morning and I am also most 
grateful to Larry, Shaun and John for the compelling case you 
have made for the Association you represent. I am sure they are 
very proud of the evidence you have given.
    Samantha, on 25th February in answer to a parliamentary 
question of mine about Nigel's death, the Defence Minister told 
the House of Lords and I quote:
    ``Mr. Thompson was a man of immense courage, humanity and 
great cheerfulness in the face of considerable adversity. Our 
thoughts are with his widow, family and friends.''
    What initial reaction did you receive to the opinions you 
voiced on what might have caused Nigel's illness? Were you 
surprised by the reaction? Did you receive adequate help from 
the NHS during Nigel's long illness and when did you become 
aware that Motor Neurons Disease among American Gulf veterans 
is now accepted as war-related by the US government? Again, 
were you told that the prevalence of Motor Neurons Disease 
among Gulf veterans in the US was twice as high as the general 
population? In other words, the reason, the very strong reason 
why the US took that decision?
    Mrs. Thompson. We felt also concerned about Nigel's ill 
health from 1995. We did not know whether or not we ought to go 
public with out fears. We took a long time because we knew the 
ramifications of that. One of the reasons we thought it 
important to voice our concerns was that every time a doctor 
and specialist dealt with Motor Neurons Disease, the same word 
kept creeping up all the time, a symptom and we kept asking 
why, why and we were told that Nigel being 36 and diagnosed 
with Motor Neurons Disease was very young and the doctors were 
perplexed. Obviously there are cases where young people have 
the illness but it is very, very rare and because it was so 
soon after returning from the Gulf you could not refer to that.
    Nigel died on 23rd January and I believe it was the day 
after that it was announced about the prevalence of ALS and the 
Gulf and I only hope now that the same research can be done 
here.
    Lord Morris. Turning to John, Bernie asked about my 
question about the government's reason for delay in recognition 
of Motor Neurons Disease as Gulf War related. The answer to my 
question in February said:
    ``The government is aware of the recent US government 
announcement regarding the prevalence of Motor Neurons Disease 
in US veterans of the Gulf conflict which follows preliminary 
evidence from the comparative study. The research findings are 
yet to be published within scientific literature. When they are 
produced we will consider carefully their implications for 
facultative veterans.''
    That was on 20th February. I have heard nothing further. I 
think also that probably answers your question, Bernie about 
government standards. Have you any comment on that?
    Flight Lieutenant Nichol. I think it is part of the 
prevarication for whatever reason about the suffering that Gulf 
War veterans have been going through for 11 years. I wrote to 
the Prime Minister in January 2000 on behalf of the veterans 
and by the British Legion to ask him to set up a public 
inquiry. He replied:
    ``The public accepts some veterans have become ill and 
sadly some have died. Many believe this ill health is unusual 
and directly related to participation in the Gulf conflict.''
    He, however, as the Minister explained in his letter, said:
    ``There is still no medical or scientific consensus on this 
subject and important research is in progress.''
    That is two years ago. That continuing important research 
was going on in January when Nigel died. It will go on this 
year and next year when more veterans die. There needs to be 
more acceptance and less heel-dragging.
    Lord Morris. Shaun, your case became a test case and you 
referred to your case before the Appeals Tribunal. It decided 
in your favor; as you say it took you nine years to get there 
but what indication have you had from the government's reaction 
to the decision of the pension Appeals Tribunal?
    Mr. Rusling. Nothing whatsoever. Nobody has written to me 
other than the Appeals Tribunal themselves to advise me Gulf 
War Syndrome was accepted. Could I concur with Sam: I myself 
had excellent care from the NHS. The doctors who have been 
diagnosing Gulf War Syndrome, there has been about 28 of us in 
my small area in East Yorkshire in England. They have diagnosed 
Gulf War Syndrome. They don't argue the fact, Yes, it is Gulf 
War Syndrome and whether they explain the diagnosis, it is the 
same. It is all the Gulf War veterans are suffering illness 
from the Gulf War and it is madness that we have had to break 
it down to each compartment, chronic fatigue, bowel syndrome. 
It is quite ridiculous and some veterans have committed suicide 
because it is too much.
    Lord Morris. Larry, I think the inquiry would like to hear 
more about the suffering you have had and also your opinion on 
why it is so important 11 years on that we should have a public 
inquiry. What the government said, as you know, is that there 
is nothing to be served by a public inquiry just as they have 
said for a long time. There will be nothing to be served by 
appointing a minister for veterans' affairs. They have said 
more recently and I will be quoting their words tomorrow, that 
they do not rule out a public inquiry now. Is there anything 
you want to say?
    Mr. Cammock. I think the need for the public inquiry is 
extremely urgent. Going back to Motor Neurons Disease, the 
national statistics are 85,000; people over the age of 55 you 
can expect three people suffering from Motor Neurons Disease. 
From the 53,600 inoculated to go to the Gulf, the Gulf veterans 
in this country, 8 of them have Motor Neurons Disease and all 
under the age of 55. Four of those men have now died.
    Lord Morris. Even the US findings understate the 
seriousness of the problem. They found that Motor Neurons 
Disease, ALS as the Americans call it, is twice as prevalent 
among American Gulf War veterans as in--
    Mr. Shays. Allow me to say, what our government was saying 
was that it was consistent with ALS in the general public but 
they were using older population but when you compared it to 
the younger population it was double, more than double.
    Lord Morris. Gulf veterans emphasized by John and others, 
they were ``A1'' when they were deployed?
    Mr. Cammock. That's correct.
    Lord Morris. They were for the most part between 20 and 35. 
There were some outside that of course but it is with that 
section of the population, the general population that the 
comparison should be made and I think, as I say, that even now 
the full seriousness is not appreciated. I do not know how you 
approach that.
    Mr. Cammock. The actual figures go a lot further if you 
take the aspect of 48,400 people actually served on the ground 
in the Gulf and if you look at the illness amongst the people, 
the figures are a lot higher percentage-wise.
    Mr. Shays. Thank you. Mr. Perot, you have the floor for ten 
minutes to ask questions.
    Mr. Perot. I would like to ask the people who took the 
vaccinations, did they ever show you what was in the phial?
    Mr. Cammock. No.
    Mr. Perot. It was ``Come in and have a shot'' and never 
read the detail. The anthrax vaccination in our country is not 
approved by the Food and Drug Administration and under our laws 
it would only be administered with consent; but some people had 
a shot and that was it. It was the delay between the 
inoculations and I assume were you ever informed of all of 
this?
    Mr. Rusling. Nothing. In fact we had nicknames for them. 
The MoD had nicknames for them.
    Mr. Shays. By the way, we cannot answer by a nod of the 
head, it has to be vocal.
    Mr. Rusling. There were nicknames for the vaccine which was 
``gutter'' and the anthrax was, I can't remember biologically, 
sorry I can't remember the other one but we had nicknames. When 
I was advised in 1996 that things were classified secret, Mr. 
Perot, I did not give my consent to it, being classified.
    Mr. Perot. You took some of them with the American troops?
    Mr. Rusling. That's correct.
    Mr. Perot. And, like everyone else, you stood in line and 
took the shot?
    Mr. Rusling. Yes.
    Mr. Perot. Then you found out later that was the attitude 
in our country. We had to do that because I do not think the 
military, the line officer is not the medical officer who 
understood the risk of the mercury and so on and so forth. Now 
how about pyridostigmine bromide?
    Mr. Rusling. Yes, I certainly stopped taking pyridostigmine 
bromide, I could not stop passing water every twenty minutes 
and I was doing twelve hour shifts.
    Mr. Perot. Did anyone tell you exactly how you were 
supposed to take it and when?
    Mr. Rusling. We were supposed to take 50 mgs three times a 
day.
    Mr. Perot. Alarms go off and they start taking it?
    Mr. Rusling. Well, what I don't understand, we were told to 
take it once or three times a day, but the alarm would go off 
and officers would come into the tented areas, mealtime or 
whatever, saying ``Take that now.'' The junior ranks were 
taking 30 tablets on top of the prescription of what they are 
advised to take so they were overdosing.
    Mr. Perot. What pesticides were used in your groups?
    Mr. Rusling. Yes it was pentiphylon.
    Mr. Perot. We say Weslon D.
    Mr. Rusling. Dytoxin.
    Mr. Perot. Your uniforms were impregnated also with this?
    Mr. Rusling. Yes.
    Mr. Perot. So, you had the same basis--
    Mr. Rusling. And there was mylithium in the casualties 
which again we did not know.
    Mr. Perot. Was there much incidence of wives who became ill 
shortly after the husbands came back?
    Mr. Rusling. A lot of wives complain of gynaecological 
problems but we do not know the extent.
    Mr. Perot. But, they started after Desert Storm?
    Mr. Rusling. Yes, I have a lot of wives complaining of 
burning semen and gynae problems which started after the 
husbands returned from the Gulf War.
    Mr. Sanders. Just for the record, maybe you can help me and 
see what kind of information we have on this. This is my 
understanding in terms of ALS. We have 700,000 troops and my 
understanding is that 16 of our veterans have been diagnosed 
with ALS out of 700,000. Here you had 60,000 people in the Gulf 
and you have eight diagnosed which suggests that 
proportionately the number here is greater than the US.
    Mr. Cammock. It is possibly true but not all of the 
veterans in the US, not all 700,000 have actually been checked.
    Mr. Sanders. Sure, but as it stands right now, the 
proportion of ALS victims in the UK is substantially higher?
    Lord Morris. Yes.
    Mr. Rusling. I think Professor Hooper will speak about 
that.
    Mrs. Thompson. I was going to say the number of ALS/Motor 
Neurons Disease is very small so although there may be some 
veterans who are perfectly well now there may be something 
going on and in a few years' time they will show Motor Neurons 
Disease. Nigel was diagnosed in 1993. He had various tests. It 
was not this, that or the other, so unfortunately it must be 
Motor Neurons Disease.
    Mr. Sanders. And the point you made earlier, this is an 
older person's illness.
    Lord Morris. Yes, it is not a young person's illness.
    Mr. Perot. Do you receive any benefits at this point?
    Mrs. Thompson. I receive a widow's pension. They recognized 
it was for war service. I receive a Gulf War pension.
    Mr. Perot. I have one suggestion in terms of how to get 
from where you are to where you want to be because our 
government was exactly in the same position. Since our 
countries are very close and we continue communications all the 
time, I think if there were ways to link your Prime Minister 
and our President in a conversation on this subject and your 
Head of what we call the Veterans Society--what do you call it?
    Flight Lieutenant Nichol. We don't really have one, not in 
the same way you have in America.
    Mr. Perot. It is the MoD?
    Flight Lieutenant Nichol. Yes.
    Mr. Perot. We are moving forward now in a very powerful and 
constructive way to solve this problem and I think if they 
shared the experiences this could do a lot to get things moving 
quickly. I think if your group understood it is a great 
opportunity to say that is good we should do it and understand 
what we are now doing in our country in terms of research and 
that sort of thing; it was postponed for some years. You have 
problems here and I know this is right in your hearts. You do 
not want it left, you risk your lives to go out and get them 
and in this case it is a subtle thing, we want to be back. I am 
certain once people fully understand that and you take the 
proper actions and the tremendous benefits that will come to 
the world and the people of Great Britain from knowing how to 
protect people and how you have that sense with vaccines and 
all the rest, I challenge that really you say what is the 
nature; whatever the status quo is, we maintain the status quo. 
We have to head for change and that is what you are working so 
hard to do and anything we can do to help in a constructive way 
we will. I cannot tell you how much I admire you for your 
integrity and your courage and I salute you on behalf of 
America. These people gave their lives for their country and we 
are so depressed and defeated by the fact that our country 
turned their back on the people that they committed suicide. 
That was terrible, because they were wounded, left behind and 
we won't do that and I'm sure your country won't do that and 
because of you we want to make it better. God bless you.
    Mr. Shays. Are you all done? Thank you, Mr. Perot. It is 
helpful those questions were put in the record. Mr. Sanders, 
you want to make a point?
    Mr. Sanders. I am unclear how the British government is 
compensating those people made ill. In general if somebody has 
ALS now in the UK, are they compensated? Is it a compensable 
illness or just an individual situation, the government makes a 
judgment?
    Mr. Rusling. From what I have seen, if there is something 
that is not right for the people and they can get away with 
paying them 20 percent pension, they will do so. That is one of 
the saddening factors.
    Mr. Sanders. So they are fighting for their rights?
    Mr. Rusling. Many people are so tired mentally and 
physically, many have committed suicide and attending MoD 
assessment programs was the final straw.
    Mr. Cammock. Even when you have been diagnosed and 
compensated with a war pension you still have to have a two 
year review and that is a complete new medical from scratch and 
the person who does the medical on you has no indication what 
your previous medicals were or previous documents. He comes 
with a blank piece of paper. You can be fine one day and the 
next day dying.
    Lord Morris. I think Congressman Sanders' question as well 
is about our arrangements for war pensions, the war pensions 
legislation. If a condition is accepted as war-related, if he 
dies, his widow is a war widow. It is that kind of thing you 
want to know more about.
    Mr. Rusling. Only if he dies of the illness attributable to 
service. He must die of conditions or he won't get that grant.
    Mrs. Thompson. You don't get a war pension unless it is 
over 80 percent.
    Lord Morris. In my own case my father died, he was very 
badly gassed, he lost a leg and he lost an eye. He died of 
heart failure and my mother was told she was not a war widow 
because he did not die from a war-related condition. I changed 
the law to the effect that anyone who died of a cardio-thoracic 
illness who had served in a conflict where gas was used as a 
weapon of war would be given the benefit of the doubt. In other 
conflicts, going back to the First war, benefit of doubt has 
been given. How much benefit of doubt has there been recently?
    Mrs. Thompson. The benefit of doubt only the last seven 
years. After the date of your first claim. After that seven 
year period it goes to prove that your illness is relative to 
your service and with the amount of documentation we have from 
the Gulf there is no chance.
    Mr. Rusling. Everything has been destroyed. All the 
vaccinations records have been destroyed, where you went from A 
to B. Everything has disappeared mysteriously.
    Mr. Sanders. Many of these illnesses take many, many years 
to show the symptoms.
    Mr. Perot. We had all these problems in the United States. 
When I first had a person with ALS, you call it Motor Neurons 
Disease but it is the same thing, contact me, I went to 
retrospective researcherrs and they said, ``We need to look at 
this.'' I said, ``We will do the research, let's just have the 
records.'' ``We can't do that it would be a violation of 
confidentiality.'' I said, ``Right, go to everybody who has 
this and ask them to volunteer.'' ``Oh no, we can't do that.'' 
We have been through this phase. Here is the exciting phase. 
You have to have people at the top who understand the real 
world and once they see, when it starts happening in our 
administration replacing the people who had been so stressed 
ever since the war was over and then you have people with open 
minds to look at the fact even those papers have all the same 
problems, it is really heartbreaking that we do not have all 
the detail but we can have vaccinations, real patterns there 
but I am an optimist and obviously you are because you keep 
fighting for what you believe in and I really believe with the 
things going on here in parliament we are going to see, if you 
continue the good fight, you are going to see some very, very 
positive things happen.
    Mr. Shays. I am going to claim back the floor. Usually what 
we do in Washington is when somebody else takes the floor we 
call it a deal but I am interested to know about Khamisiyah. We 
were told in the US that our troops were not exposed to 
offensive chemical weapons and we kept hearing the word 
``offensive''. We had a witness coming to testify that troops 
were exposed to chemical weapons at Kyamisiyah, he had a video 
of our troops, taken shots of the shells and rockets. When our 
Department of Defence learned that, on Tuesday the week before 
that we were going to have this hearing and have his video 
tape, on the Friday at 12:00 o'clock they announced there would 
be a press conference at 4:00 o'clock. They said our troops 
were never exposed to offensive chemical weapons but might have 
been exposed to defensive chemical weapons. In other words we 
had blown them up and the fact was our Department had known 
this for a period of time and had not disclosed it.
    We tried to imagine who it originally was, it was 2,000 and 
5,000 and then potentially close to 100,000 of our troops and 
by the way when I say ``our troops'' I mean our coalition of 
troops exposed. I thought in one sense we can't be here. We are 
here trying to help veterans and particularly our American 
veterans but also those veterans who fought side by side with 
us and we fought side by side with them. So do you ever have 
that feeling when you walk out on ice and you think it is 
rather thin? Are we treading on thin ice in terms of our 
injection of what we have learned and sharing it with what you 
are learning in your country?
    I would say in our country we are a little ahead. We think 
we have gone to the point where the momentum is turning to the 
veteran; I am not sure that is the case in the UK, but it will 
be the case if you continue to speak out. I am struck by a 
comment we had in the United Air Force, Major Michael Donnelly. 
He is a gentleman who is still alive with ALS. He came before 
our Committee and recounted a now all to familiar litany of 
official refusals to connect his illness with military service 
and he was at one time a robust military pilot and there is a 
previous picture of his two children on either side of the 
wheelchair. He is not robust anymore. He came before us hardly 
able to speak, his wife one side and father the other. He 
looked at us and in a quiet voice said, ``I am not the enemy.'' 
You triggered that because you almost with you and your husband 
were deciding whether to in a sense, to challenge your 
government; it was almost if you did you would be viewed the 
same as he was. Imagine a witness of any country coming to his 
elected officials and saying, ``I am not the enemy.''
    I am interested to know, Mrs. Thompson, if there is one 
thing that could happen in the UK that you would like to see 
happen in your country, what would that one thing be?
    Mrs. Thompson. I think it would be if we could have 
complete honesty from now on. Right from the beginning people 
in the MoD did not want to listen to us. We would not go there 
and be a pain to them, but we continued to fight and gradually 
we have made tremendous progress. As you said yourself, we feel 
that it is turning in the veterans' favor in America and I 
think it would be really something if we could feel that it was 
happening that way over here and maybe if we continue, that 
will happen.
    Lord Morris. On your point about Khamisiyah, I was told by 
the then Minister for the Armed Forces, I think in 1995 in the 
House of Commons that only British servicemen could possibly 
have been exposed to the plume after the destruction of the 
Iraqi chemical arms dump. Paul Tyler was told fairly recently, 
last month, that the MoD now estimate it could be as high as 
90,000. That is an enormous difference. That is the position 
here. It could be as high as 90,000 people exposed to those 
nerve agents because of the bombing of the Iraqi chemical arms 
dump in South Iraq.
    Mr. Shays. I am going to conclude my questions and if no 
one else has questions, we are going to the next panel; but as 
with each of the panels, is there something that you wish we 
had asked that you are prepared to answer, something you want 
to put on our record? Is there any final point that you think 
needs to be made?
    Mr. Cammock. I would like to say one thing with reference 
to the bromide tablets that were talked about earlier on. One 
of the problems in the Gulf was the bromide tablets. You were 
given a handful of tablets and ordered to take them on a 
regular basis. When it came to people working on shifts, 
working 12 on, 12 off and if they happened to be sleeping at 
the time, they would probably, as in most cases happened, took 
their bromide tablets prior to going to sleep. When the alarm 
went off and they jumped out of bed, the order came from the 
NCO or officers, ``Take your tablets now'' and they would be 
taking tablets again. In some cases it could only be a matter 
of hours before they took the previous one. So, the three doses 
a day did not occur on a regular basis.
    Mr. Shays. My theory was if two, three or four would be 
better, I tried that on my lawn and ended up with a pretty 
brown lawn, but that was not my life and we do know we have 
testimony that when the alarms went off, some of our military 
personnel did more than was required and they did as you 
pointed out, Mr. Perot, at the wrong time in the heat of the 
battle. Any point you wanted to make?
    Mr. Rusling. I would like to confirm what has happened 
during the Gulf War, our soldiers from both sides need to know 
if they go to war they are going to get proper medical care and 
proper assistance should they be ill. This should not happen to 
the next generation of servicemen, the war on terror and we 
need to know that there are proper ways for medicals and it 
won't happen again.
    Mrs. Thompson. I would just reiterate Nigel maintained he 
would not be alive to see the results of an independent public 
inquiry. I just fear how many more veterans will also not be 
around to see the beginning of this public inquiry, let alone 
the conclusion of one.
    Flight Lieutenant Nichol. I think it has all been said, 
Congressman Shays. So, thank you, Mr. Perot, thank you as well. 
I hope in five or ten years we are not still talking about it.
    Mr. Perot. You won't be. We were exactly where you are 
today. Is that a fair statement?
    Mr. Shays. That's a fair statement.
    Mr. Perot. But once our leaders solve a problem and you 
say, Who is keeping this going? It is career employees. Once 
our leaders saw what was really happening they took the 
leadership role. You can do the same thing but you need to keep 
up the good fight, make sure they get all the information that 
you see.
    Mr. Cammock. In 1997 I spoke to your Committee in 
Washington. Since that date nothing has changed, not one iota 
has changed of any research or any of the government.
    Mr. Shays. If it is any consolation to you, what you said 
to the Committee made an impact in the US and had an impact on 
the veterans in the US and we were grateful for those points. I 
am going to conclude by saying to you all that tomorrow I have 
an opportunity to address some members of parliament. I am 
going to repeat your requests of all the things you could ask 
for, you ask for honesty. What a beautiful thing to ask for and 
what an easy thing to comply with. This part of the hearing is 
over and we will have a break with the panel. We will take a 
two minute recess.
    [Recess.]
    Mr. Shays. I would like to call the Inquiry to order and 
welcome our guests, our witnesses as well and I am requested we 
speak as loudly as we can. To welcome and introduce our second 
panel we have Patrick Allen, senior partner of Hodge Jones 
Allen, leading solicitor on compensation payments for Gulf War 
veterans. We also have David Laws, Liberal Democrat MP with 
constituents who have suffered many serious illnesses they 
attribute to serving in the Gulf. We were going to have the 
Countess of Mar, I think she is not as well as she needs to be 
to be here today and we have Paul Tyler, a member of parliament 
on the effects of organophosphates and other issues relating to 
Gulf War illnesses.
    We are going to invite each of our witnesses to submit 
whatever statement they want for the record. It will be 
submitted and made on the record and if they want to make 
additional comments they should feel free and we thank you for 
your patience and are grateful that you are here. Mr. Allen, 
you have the floor as we say in the US.

STATEMENT OF PATRICK ALLEN, SENIOR PARTNER, HODGE JONES ALLEN; 
  HON. DAVID LAWS, LIBERAL DEMOCRAT MEMBER OF PARLIAMENT; AND 
             HON. PAUL TYLER, MEMBER OF PARLIAMENT

                   STATEMENT OF PATRICK ALLEN

    Mr. Allen. Thank you for this opportunity of addressing you 
this morning. I have prepared a memo which I have submitted 
which I hope you have and I will try to summarize the main 
points of that memo in a few minutes.
    My law firm in Camden, London has a contract with our 
government, with the Legal Services Commission to carry out 
investigations into Gulf War Illness compensation claims. The 
legal position in this country is that UK servicemen and women 
have a right to make a claim against the government for 
personal injury or death by negligence or other torts in 
relation to events which take place after 1987. This followed a 
change in law after that time. Claims are made in the normal 
way through the courts and there are many claims.
    My firm acts personally for about 600 veterans and we 
coordinate the compensation claims for about 2,000 veterans 
altogether. We have a team of two full time advisers and they 
carry out all the relevant research and look to report papers 
from all round the world relating to the Gulf War. We have 
carried out a limited number of tests and we have considered 
and are considering all the suspected causes of Gulf War 
illness which you mentioned this morning.
    Recently the MoD has set up an investigation into depleted 
uranium and there is a DU Oversight Board which meets in order 
to oversee those investigations and we have a member on that 
Committee. Obviously, we cannot disclose the results of our 
inquiries because that is covered by legal professional 
privilege but no proceedings have been issued in the English 
courts at this moment against the MoD, with the general 
extension of time given by the MoD.
    There is limited no fault financial compensation available 
to Gulf War veterans in this country. They are entitled to 
apply for a war pension under the War Pensions Scheme 
administered by the War Pensions Agency if they are injured or 
become ill in the course of military service. There has to be a 
causal link between injury or disability and service in the 
armed forces. For claims made within seven years of leaving the 
service, the burden is on the Secretary of State to show the 
disability is not linked to service but I think you will see 
the benefits under the scheme are very modest and for 100 
percent disablement the payment shows <brit-pound>6,250 
disability level.
    Around 53,400 member of the UK armed forces served in the 
Gulf War conflict. About 2000 of these have notified the MoD of 
their intention to claim compensation for Gulf War illness and 
as at September, 2001, 1231 applications had been made for war 
pensions by Gulf veterans and of those 1038 had been granted.
    In my paper I summarize the international state of 
epidemiology in the Gulf War illness which I think we are all 
aware of. There have been many studies carried out in the UK, 
Canada and US that have all roughly come to the same 
conclusions. They have studied Gulf War veterans and compared 
them with those who have not been in the Gulf and found that 
those who served in the Gulf suffered two to three times more 
than those who did not. It is remarkable how many of them come 
up with incredibly similar results. Simon Wessely has reviewed 
the cases in a paper in January, 2001 and he says and I quote:
    ``There is a health effect and it is not trivial. It is not 
due to selection bias.''
    The fact that people are coming forward and filling out 
their own questionnaire, there is a general health effect. Our 
approach recently has been firstly to attempt a mediation of 
Gulf War claims against the MoD and with the time and expense 
involved in a full-blown court case. We therefore made an 
approach to the MoD to consider setting up a mediation which is 
the form of alternative dispute resolution which will be on a 
local basis and consider not just compensation claims but all 
the matters of concern to veterans.
    Now, unhappily, that approach was eventually rebuffed. 
There was considerable correspondence with the Prime Minister 
and his Ministers. Lord Morris assisted us with that 
correspondence. At one time we thought the matter was going to 
be considered favorably but at a meeting with Dr. Moonie in 
March, 2001, he said there would be no discussions along these 
lines, this despite the fact at about the same time in March, 
2001 the Lord Chancellor issued a press statement on behalf of 
the UK government saying all departments would use mediation 
and dispute resolution as a means of settling claims brought 
against government departments.
    However, the Prime Minister clarified the matter in May, 
2001 in a letter to Lord Morris:
    ``The MoD is very happy to discuss these issues (DU) or 
other issues with veterans or their legal representatives. I 
know that HJA attach importance to dealing with matters of 
dispute which go beyond the issue of liability and 
compensation.''
    --and that they would be happy to have discussions with us 
on the basis that there is no legal liability for Gulf War 
veterans. We embarked on some meetings on issues. It appeared 
as long as we did not talk about compensation and we had two 
meetings, one was to highlight concerns about the veterans 
about the administration of the pension scheme itself, there 
were great worries, it worked in a slow unreliable way, 
inconsistencies with the decisionmaking and we discussed this 
with the Head of the Pensions Agency and that did result in 
some helpful moves and some of the problem cases were dealt 
with.
    We then had a meeting with MoD officials to talk about the 
Gulf Veterans Medical Assessment Program. You may know the 
GVMAP was set up by the MoD to make an assessment of Gulf 
veterans who were not well and this has been going on since 
1994. Something like 2000 Gulf veterans have been seen and they 
h ave found that many are not well, in fact about 20 percent 
are not well. What we have been concerned about is there is no 
follow-up for those who are not well. This is simply an 
assessment and the results of the assessment are sent to the 
veteran's doctor and it is up to the British NHS to take over 
any relevant treatment at that point.
    We are aware that the Americans have taken a different tack 
on this and we have been carrying out a detailed search to 
discover the best treatment for Gulf War veterans. There has 
been a lot of research into this issue and the IOM have issued 
a paper highlighting what they think are the best treatments 
for the symptoms which Gulf veterans display, including chronic 
fatigue syndrome, depression, fibromyalgia et cetera and they 
remark on the use of behavioral therapy and exercise. I have 
quoted in my paper what the IOM say they believe the Veterans 
Agency should:
    ``Provide specific training to health care providers caring 
for Gulf War veterans to ensure that they are skilled n the 
principles and practice of patient-centred care and ensure that 
healthcare practitioners serving Gulf War veterans are allowed 
sufficient time with patients to provide patient-centred 
care.''
    No such advice has so far been given to us and this is a 
matter of great concern to us. The NHS is the treatment area 
and there is no military expertise, no coordination, only 
fragmentation and variation across the country and we consider 
that the option of treating veterans in the NHS is likely to 
fail. They are not likely to have the expertise or resources to 
tackle the problems of behavior therapy.
    We consider that the way forward is for the MoD to set up a 
Veterans Assessment and Treatment Center working with the NHS 
which will provide the treatment needed. I quote in my paper 
what Bruce George said in January:
    ``Therefore we have to look to treat, largely in a 
sympathetic and symptomatic manner. Symptomatic treatment where 
there is no identifiable cause is all that is available to 
us.''
    We thought we should call for a public inquiry. We believe 
that only a public inquiry will allay the fears of veterans and 
the public that all relevant evidence has been properly 
examined. There has been a history of delay and secrecy on the 
part of the government in the investigation and treatment of 
Gulf War illness which has resulted in a loss of trust and 
confidence among veterans. Conspiracy theories are common. We 
hope that a public inquiry will establish where the truth lies 
in relation to facultative illness and the alleged causative 
factors and will highlight the best way forward for treatment. 
We made a formal request to the Prime Minister recently. That 
was rejected too.
    [The document, ``Memo by Hodge Jones & Allen,'' follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.054
    
    [GRAPHIC] [TIFF OMITTED] T9074.055
    
    [GRAPHIC] [TIFF OMITTED] T9074.056
    
    [GRAPHIC] [TIFF OMITTED] T9074.057
    
    [GRAPHIC] [TIFF OMITTED] T9074.058
    
    [GRAPHIC] [TIFF OMITTED] T9074.059
    
    [GRAPHIC] [TIFF OMITTED] T9074.060
    
    [GRAPHIC] [TIFF OMITTED] T9074.061
    
    Mr. Shays. Thank you, Mr. Allen. I was going to call you 
the Right Honorable but I understand that would be giving you a 
title you don't yet have?
    Mr. Sanders. We are very generous about those things.
    Mr. Shays. The Honorable Mr. Laws, it is wonderful to have 
you here and you have the floor.

                  STATEMENT OF HON. DAVID LAWS

    Mr. Laws. Thank you very much for the invitation and for 
the boost to the campaign your being in the country has given 
us. I have prepared a paper which has been given to you but to 
bring you up to date I would like to not talk entirely to that 
paper.
    Mr. Shays. The entire statement will be put in the record.
    Mr. Laws. I think I should make it clear firstly my reason 
for involvement in the matter of the Gulf War and that is I am 
the constituency Member of Parliament for Mrs. Thompson who was 
here giving evidence this morning and any constituency MP with 
such a case would take an interest, but I take a particular 
interest because Mrs. Thompson is such an effective 
spokesperson over this issue and speaks not only with great 
passion but great balance and common sense and I am pleased to 
support her today. There are four points:
    The first point is why do we need to get to the bottom of 
this issue? For Sam it is to get to the bottom of the issue and 
what caused the death of Nigel. I think the other reasons have 
been touched on. Knowing the causes of Gulf War illnesses would 
assist in treatment, on compensation and help us avoid these 
problems in the future for serving members of our forces, for 
British and US who are at present serving in such places as 
Afghanistan.
    Secondly, to highlight the very poor record of successive 
governments in getting to the bottom of the issue. This is not 
a party political issue in the country. Successive Defence 
Committees in the House of Commons have commented on the very 
poor record of the MoD in getting to the bottom of this issue 
and the year 2000 report of the Defence Select Committee 
summarizes the very poor record of the MoD and it draws 
attention to the 1995 report of the Defence Select Committee 
and that report stated:
    ``In responding to the allegations of a Gulf War syndrome 
MoD has been quick to deny but slow to investigate...MoD's 
response has been reactive rather than proactive and 
characterized throughout by scepticism, defensiveness and 
general torpor.''
    In the Defence Committee's 1997 report, concern about the 
way in which the MoD was pursuing the matter was reinforced 
when the Committee stated:
    ``We do not feel that the Ministry of Defence has been 
dogged in pursuit of the facts.''
    Even the recent report expressed concerns about the way 
this matter was being dealt with and drew attention to the fact 
that veterans and veterans' families do not have confidence in 
the way the MoD is pursuing this matter and does not have 
confidence in the department which had overarching 
responsibility for British troops in the Gulf War investigating 
its own behavior and responsibility towards the troops. We have 
a problem we are leaving the department responsible for what 
happens in the Gulf to investigate its own abilities and that 
is not a very satisfactory state of affairs.
    One other point is relative to recently and that is the 
experience of Shaun Rusling. You referred earlier on to what 
was needed from politicians in relation to these issues is 
honesty, but we see in relation to Shaun Rusling there is a 
lack of honesty from the government. Mr. Rusling had his appeal 
by the War Pensions Agency upheld and they proved the fact that 
he is suffering from Gulf War Syndrome and they criticized very 
clearly the MoD for amending the diagnosis to change the words 
Gulf War Syndrome to symptoms and signs of ill-defined 
conditions. They said in their summing up:
    ``We know of no basis under legislation which entitles the 
Secretary of State effectively to withdraw an appellant's 
appeal by replacing a rejected condition with accepted one.''
    Therefore, I took a question to the MoD asking them the 
reasons that they changed the appeal papers of Mr. Rusling and 
why they ordered them and after a delay, the answer came back 
that it would appear not all the appeal papers of Mr. Rusling 
had been presented at the Appeals Tribunal in 1999 and at that 
tribunal further diagnoses for appeal were identified and this 
required a new set of papers. This is the kind of obfuscation 
which gives the MoD a very bad name and we are making in 
relation to Mr. Rusling's own decision to find out because of 
the decision of the War Pensions Agency Appeal Tribunal the 
government will accept the diagnosis of Gulf War Syndrome and I 
asked the Secretary of State for the Defence whether he would 
make a statement on that issue as to what issue the government 
is going to take as a result of that fundamental ruling.
    I tabled it some weeks ago and on 13th June I received an 
answer back from the Minister which just said, ``I will answer 
shortly'' so we are still left waiting for what the 
government's response to this very key area is and frankly 
after 11 years you would have thought we would be more together 
than that.
    The other issue is whether there should be a public 
independent inquiry on the matter and I think all of us giving 
evidence think there should be because it is the only way we 
can get to the truth. In 1994, the Minister of the Armed Forces 
told the House of Commons he did not want to have an inquiry 
and the excuse was:
    ``In the absence of any confirmed scientific evidence that 
there is a health problem resulting from Gulf service, I do not 
believe there are any grounds at present for such an inquiry.''
    So, the argument was that there was no evidence to have--
    Mr. Shays. Just to interject, if you don't open the door to 
see what is in the room, you are not going to see the evidence.
    Mr. Laws. Exactly and earlier this year the position of 
Ministers is still there should not be a public independent 
inquiry but I was told by Mr. Ingram at the MoD that a public 
inquiry could not help to answer the question why some Gulf 
veterans are ill, only continuing scientific and medical 
research can do that. In fact, there seems to be an acceptance 
that there is an unusual illness for people who served in the 
Gulf but the argument is now the inquiry itself could not do 
the scientific and medical research. That is obviously true but 
it is wilfully misleading to the person producing that research 
to make sure it gets done rapidly and on time.
    To finish, the Minister for Veterans Affairs in the House 
of Commons and the MoD also wrote on 8th April and he said:
    ``The Prime Minister does not believe that an independent 
public inquiry into this matter is appropriate at this time.''
    Then I pressed the Minister further to answer in what 
circumstances would it be appropriate to hold such an inquiry 
into this matter and I am afraid in relation to the lack of 
honesty of the MoD, the answer came back:
    ``If the circumstances were to change, a public inquiry may 
become the appropriate mechanism.''
    I don't know if you have civil servants like we have in 
this country.
    Mr. Sanders. Oh, no, none whatsoever.
    [Laughter.]
    Mr. Laws. This is the real equation of the issues.
    Lord Morris. Since then, David, I have been told that the 
possibility of a public inquiry being appropriate is not 
excluded. Those words were chosen with clinical care.
    Mr. Laws. I think you are absolutely right. They are the 
same words as in 1994. ``I do not believe there are any grounds 
at present for such an inquiry.'' So, whether it is a door we 
can kick in or whether it is a form of words to say we should 
not have an inquiry now is delaying it indefinitely, but thank 
you for highlighting the issues and rather than ending on a 
sour note, quoting the MoD, you may have noticed Britain's 
leading newspaper had an article in which it backed the call 
for a public inquiry and that is a helpful opportunity.
    [The statement of Mr. Laws follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.062
    
    [GRAPHIC] [TIFF OMITTED] T9074.063
    
    [GRAPHIC] [TIFF OMITTED] T9074.064
    
    [GRAPHIC] [TIFF OMITTED] T9074.065
    
    Mr. Shays. Thank you.
    Mr. Tyler?

                  STATEMENT OF HON. PAUL TYLER

    Mr. Tyler. Can I echo the thanks of my colleagues to all 
your team for giving the opportunity for us to give evidence. 
As with colleagues here I do not intend to go through all my 
statement.
    Mr. Shays. Your statement will be part of the record.
    Mr. Tyler. Thank you. What I would like to do is highlight 
one or two points but in addition I have provided for your 
counsel something from Hansard, our official record, which I 
hope may be helpful and I will come to that in a moment.
    I am not a medic nor a scientist, I am, like you, an 
intelligent layman. I happen to be a member of the Royal 
British Legion Gulf War Group and I became that because of my 
long-term campaign because of the damage done to so many people 
by organophosphates and it was through that route I came to the 
issue of the Gulf War veterans and the Gulf War syndrome.
    I start from the position that I do not know whether there 
is a connection between organophosphates and the symptoms that 
have been exhibited by some of the people you met today and 
many, many other veterans on the other side of the Atlantic. 
That is not the issue. The issue is that nobody seems to know 
and 11 years afterwards somebody ought to be really certain. 
That is the real scandal, real tragedy.
    In my statement I refer to the symptoms that are common 
from acute organophosphate poisoning and I took this from 
Health & Safety guidelines note MS17 which was not intended to 
guide those who went to the Gulf. Had it been available to 
those who went to the Gulf we may have had a different 
situation. It reveals a huge range of symptoms. This diagram is 
taken from your own Environmental Protection Agency which 
illustrates everything from the top, memory loss to muscular 
loss at the bottom and many of those are similar to those 
exhibited by Gulf War veterans.
    The chronology ran roughly like this on this side of the 
Atlantic: In early 1994 it became apparent that some 
organophosphates had been used in the Gulf and as a result of 
that later in October, 1994 I tabled a parliamentary question:
    ``How many British troops were exposed to organophosphates 
pesticides, including malathion, during the Gulf War, and what 
research his Department has undertaken into the links between 
the use of these pesticides and Gulf War Syndrome.''
    The then-Minister was due to reply on 3rd November:
    ``I am aware of only 10 British service personnel who would 
have been involved.''
    And he went on to explain they were simply involved in 
spraying some 50 Iraqi troops, delousing them. However, despite 
the fact that that was used, a MoD memorandum produced later 
demonstrated that in fact that was not the true position. It is 
all here in my statement I will not go through it all for you 
but the true position was that many troops were exposed to 
organophosphate pesticides. Their equipment was sprayed. The 
basic precautions that should be taken when using these 
extremely dangerous pesticides which I am sure you know were 
originally developed in the last World War as a germ warfare 
agent, that these pesticides were used extensively, warnings 
were not noted, indeed such was the necessity to increase the 
supply that they were bought locally when, of course, the 
instructions were not in the language the operators could 
understand.
    As a result of the admission, the information given to me 
in the House of Commons was completely inaccurate; the then 
Minister apologized to the House and to the Select Defence 
Committee that the mistake had been made. As a result of that 
the Royal College of Physicians was asked to investigate this 
particular issue. Again, I quote their conclusions which were 
basically to say that far greater resources had to be made 
available in the efforts to discover the causal links behind 
the suffering of many Gulf War veterans.
    Two major concerns were highlighted by the Royal College. 
First, it did not seem and this has come out from all your 
witnesses this morning, that the government was taking 
seriously the concerns of service personnel who went on our 
behalf, on behalf of the free world to the Gulf. As a result of 
that lack of interest, not nearly enough resources were being 
given to this particular issue.
    In March this year I asked a parliamentary question again 
of the Armed Forces Minister that he would give:
    ``a list of international studies of the effect of exposure 
to organophosphate pesticides with particular reference to the 
1990-1991 Gulf conflict.''
    I have provided for you his answer to that request. That 
request I put before the Royal British Legion Group on 21st 
March and with the help of Professor Malcolm Hooper from whom 
you are going to have a witness statement this afternoon, we 
have been able to identify a huge range of discrepancies in the 
answer given by the Minister on this very specific issue on the 
relevance of organophosphates to this particular problem. That 
is in my supplementary pack for you but no doubt you will wish 
to talk to Professor Hooper about that. Obviously, his 
expertise is far greater than mine in these matters.
    As a footnote I want to make a quick contribution on the 
continuing saga referred to already of Shaun Rusling's appeal 
to the Appeals Tribunal. This morning in Hansard I have got 
another statement back from the Armed Services Minister, Dr. 
Lewis Moonie. Again I need not read that into the record but I 
think it displays a continuing failure to understand the 
severity of the problems faced by the veterans and perhaps even 
more serious the MoD seems to be in denial when it comes to the 
actual use of the words Gulf War Syndrome. Even when the 
Pensions Tribunal in making its award to Mr. Rusling as you 
heard this morning, even when there on the official paper it 
referred to the Gulf War Syndrome, the MoD refuse to 
acknowledge that there is such a thing and that as a starting 
point for a really rigorous inquiry seems to me and I am sure 
many others, to fail dismally when it comes to answering Mrs. 
Thompson's point which she made at the end of her submission to 
you this morning: Will the government now be honest about this 
particular problem?
    I have on a number of occasions pressed the government, 
both through the Leader of the House whom I shadow in the 
Commons and in terms of questions to the MoD to try and get 
that degree of clarity into their performances.
    Mr. Chairman, I think this issue is not just important in 
terms of looking back. As Mr. Perot has already said this 
morning, it is possible that our troops may again be engaged in 
a similar conflict, perhaps even in that particular war theater 
in the Middle East. If so, it is critical, it seems to me, that 
we are better prepared, we know what is involved and we protect 
those who serve on our behalf in a more effective way.
    At the end of my statement I have made a very short 
submission and perhaps I should read that to you. First, I 
believe that the MoD and the operational command structure for 
UK service personnel in the Gulf War were either misinformed or 
negligent in the way in which they authorized, organized and 
monitored the purchase and use of organophosphates. Secondly as 
a result, the MoD failed to acknowledge and investigate the 
potential role of organophosphates in causing significant 
illness amounts UK service personnel (especially those directly 
exposed to risk from OPs). Thirdly, even when the mistakes were 
discovered and admitted, MoD failed to investigate with 
sufficient urgency and resource the significance of this 
connection, or for example, the remarkable coincidence that 
other allied forces, not exposed to OPs, experienced less 
symptoms of illness. I think there is evidence that the French 
are in that category.
    Four, the recommendations of the Royal College of 
Physicians report (commissioned by the Government) have not 
been followed through in terms of increased emphasis and 
resources, or even taking advantage of the more extensive and 
effective US research program. Finally the Shaun Rusling appeal 
case raises alarming new concerns about the MoD's true 
commitment to a full and fair investigation of the Gulf War 
Syndrome; the determination of the US Congress to achieve an 
exhaustive investigation should prompt the UK government to 
take a more proactive stance, and to fulfil its obligations to 
especially deserving British service personnel.
    One final point--
    Mr. Shays. Please do. Can you make it brief?
    Mr. Tyler. Lord Morris referred to the fact that originally 
a question elicited the answer that only one person amongst our 
troops was affected by the blowing up of the chemical dump, the 
plume and I established in a recent question that there were at 
least 9,000 individuals who were affected. That degree of 
mistake is more than a discrepancy, it is a disgrace.
    [The statement of Mr. Tyler follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.066
    
    [GRAPHIC] [TIFF OMITTED] T9074.067
    
    [GRAPHIC] [TIFF OMITTED] T9074.068
    
    [GRAPHIC] [TIFF OMITTED] T9074.069
    
    [GRAPHIC] [TIFF OMITTED] T9074.070
    
    Mr. Shays. I would say it is a real issue where the plume 
went because our numbers were much smaller but go into 50,000. 
Mr. Sanders?
    Mr. Sanders. Thank you again for your testimony. My Tyler, 
as I understand it, you came to this issue because of your 
general concern about the impact organophosphates might have on 
human health. One of the themes that has also interested me is 
the fact that many of the illnesses being suffered by the 
veterans are not new illnesses. They are illnesses that we see 
in civilian society every day. We have heard what you call 
Motor Neurons Disease we call ALS, this is not a new illness. 
It is something in the civilian society. We are also looking at 
problems like chronic fatigue syndrome. That is what we call it 
in the US; memory loss or failure to concentrate is a common 
symptom for a Gulf War veteran, irritable bowel syndrome, 
depression or mood swings. We heard testimony from people who, 
if they were exposed to perfume would become quite opposed to 
it.
    My question is: Given the fact that many of these symptoms 
have been seen for many years and associated with many 
organophosphates in chemicals, why has that connection not been 
made more quickly in terms of Gulf War illness? Why has someone 
not said, ``This is nothing new, this is what happens when 
people are exposed to organophosphates?' Why has there been the 
reluctance on the part of the government or some of your 
researchers?
    Mr. Tyler. I think your experience must be the same as 
mine. I think it is quite extraordinary that it took a question 
from me, a mere layman with no experience apart from my 
interest, why was it the symptoms were so similar? When I got, 
``Well, so very few people were exposed so that can't be the 
connection.'' It was months and months later that the admission 
came out of the MoD saying the answer was entirely wrong and 
thousands of our troops were exposed to organophosphates. So, 
the only answer I can give is the lack of information in our 
various departments, after all, the experts here in London were 
very knowledgeable about the effect of organophosphates and 
were beginning during this period as a result of campaigners I 
have been associated with, to be aware of the very considerable 
dangers of people's exposure, the fact that people went to the 
Gulf without that information was in fact a scandal without 
what happened later.
    Mr. Sanders. Where are these experts, these medical people, 
researches now? How can they evade the issue? I have spoken to 
hundreds of physicians in one room who treat people who are 
made ill by exposure to chemicals and then I believe that the 
AMA medical organization have diagnosed this does not exist. 
So, this is a very hotly debated issue in the US. Many people 
do not believe it. My question is, I presume, is there at least 
a body of thought within the UK whether it is health department 
people, people in agriculture who understand the potential 
danger to organophosphates and say, ``This is nothing new, we 
have seen this for dozens of years and of course this is what 
it is about.'' Where are those people, where are the voices? 
Are they working with the veterans organization to pressure the 
government?
    Mr. Tyler. The answer to your question is, yes, yes, yes, 
yes. Professor Malcolm Hooper is a leading expert and he is 
coming this afternoon. I think it will be better if he gives 
you the detailed information you are seeking rather than me as 
a layman.
    Mr. Putnam. Mr. Allen, your firm has retained two 
scientific bodies who are working on the Gulf War symptoms we 
have referred to today.
    Mr. Allen. They are not collecting the work. We are 
analyzing the work. We cannot put the resources you need to 
conducting your own research and the Americans have spent many, 
many dollars and I know the MoD have spent over <brit-pound>1m. 
We are a law firm funded by public funding.
    Mr. Putnam. That is in a review capacity?
    Mr. Allen. It is a review of the many articles and papers 
which are published on the Internet.
    Mr. Putnam. Mr. Tyler, the focus of your work has been on 
the role of organophosphates. Do you believe the vaccines and 
the treatments are not contributing factors to the Gulf War 
illness?
    Mr. Tyler. I don't have the expertise to rule it out. It 
could be that those who were exposed to organophosphates and 
had those vaccines, that may well have triggered the sort of 
symptoms that we have been witnessing. I think that those you 
will speak to later will give more detailed scientific evidence 
on that point. I think looking at the most limited point there 
could well be an interaction as we indeed have found with other 
people in other walks of life who have been exposed to these 
pesticides.
    Mr. Putnam. You referred to French evidence. I am not 
familiar with that. Can you elaborate on that?
    Mr. Tyler. I understand that organophosphates were not used 
amongst any of the French troops at all and there seems to be a 
much lower level of reported ill health which would suggest 
that that may well have been a negative factor, a double 
negative. That is anectodal, I don't have any direct evidence 
from the French government or any inquiry in France. It may be 
Lord Morris can add to that.
    Mr. Shays. At this time, Lord Morris.
    Lord Morris. Christopher, I think you were extremely 
fortunate in having such an impressive panel of witnesses for 
the bereaved and those who are chronically sick due to the Gulf 
War and I think we are very fortunate again that we have 
Patrick Allen, David Laws and Paul Tyler. Perhaps I could first 
of all ask David Laws, why does he think the government now, 
you said successive governments have been resisting a full 
public inquiry. Why does he think that against the mountain of 
evidence of direct links between the illnesses of Gulf War 
veterans, they are still resisting? Why is it so important to 
pursue this matter after the Gulf War ending and what is the 
MoD's reaction to the decision by the Appeals Tribunal in the 
Shaun Rusling case?
    Mr. Laws. Well, not only do people who have lost loved ones 
want to get to the truth but we can sort out compensation, the 
treatment of those people and make sure servicemen we are 
sending out now to do the same tasks, to make sure they won't 
have the same type of health problems in the future.
    In the MoD we have three problems. In just talking about 
the very nature of the MoD, it is used to the culture of 
secrecy and not seeing very much as being part of the mentality 
of the health department. There are a few other issues, the 
issue of compensation but for the MoD to accept direct 
responsibility, I don't think that is the overwhelming factor. 
I just used what we are expecting the MoD to do as a department 
is to take responsibility to get to the bottom of a problem 
which may have arisen as a consequence of failures whether 
understandable or not; failure of the people accountable in 
1990 and 1991 and no one likes to mount a great searching 
investigation into issues likely to reflect badly on 
themselves.
    Lord Morris. My approach was to go to the Prime Minister on 
the grounds that more than one department is involved and that 
the case, the centrally important point in the case was that a 
departmental inquiry is not good enough. So, that is why I 
approached and Patrick knows all about this, the Prime Minister 
to say that only the Prime Minister could arrange a wide-
ranging inquiry with all the departments across Whitehall.
    Mr. Laws. I think you are right and it may take momentum 
from someone outside the Prime Minister looking at the issues 
to get an independent inquiry. When the government came in in 
1997 it did not have the historical baggage so it started off 
more interested in getting into office; however, Ministers come 
and go but our servicemen remain the same. So, the culture is 
not to get to the bottom of the situation so I think you are 
right, it may take the Prime Minister to force the MoD to think 
again.
    Lord Morris. Patrick, you are a highly respected lawyer in 
this field who said that you support a public inquiry. I think 
it might help our American colleagues if you could tell them 
about the kind of issues, tragedies that have been looked into 
by public inquiries like Paddington, Alderhay, the sinking of 
the Marchioness and the scale of those tragedies compared to 
this one.
    Mr. Allen. Sadly, we have had quite a number of national 
tragedies, mainly concerned with transportation disasters and 
generally speaking there has been a public inquiry. Sometimes, 
the government has tried to save money by not having one. That 
is not the case with the Marchioness where a pleasure boat sank 
in the river and the public inquiry only took place ten years 
later. They want to save money but getting to the truth can be 
quite expensive. You have to really assemble in public all the 
relevant evidence with witnesses and then those concerned, the 
injured and bereaved, can see issues are being got at 
responsibly and can be satisfied there is no stone unturned.
    With the Gulf War it is the opposite. There is suspicion 
that things are covered up and delays and the MoD have a lot of 
the facts. They control a great deal of the information. Most 
of us do not have the information. They have information about 
which vaccines were used; some medical records were destroyed 
inadvertently, we understand, but only by having a public 
inquiry can the injured, the bereaved get their hands on the 
information. In the past we have got to the truth, sadly a lot 
of the recommendations have not been implemented but at least 
the public links have taken place and that is what we need with 
Gulf War illness.
    Lord Morris. You point out that 100 percent for disability 
pension is not a king's ransom. I know Ross Perot's favorite 
quotation from Kipling is as follows: ``Look where he's been, 
look what he's seen, look at his pension and God save the 
Queen.'' But, I am very glad that you point out we are not 
talking here of creating millionaires.
    Can I just turn to Paul. Paul, I think it was John Major, a 
constituent of John Major's who said he was spraying in the 
tents and, of course a great many people who were not mentioned 
in answer to you were very closely involved in that they were 
spending all day every day spraying the tents where our 
soldiers lived, with organophosphates and it was reported that 
some of them were soaked to the skin with organophosphates. How 
can it possibly be thought by anybody that that would not have 
very serious consequences against the background of our 
experience in the farming industry in this country?
    Mr. Tyler. That is absolutely right and it was indeed not 
only that that was revealed much later which meant, of course, 
there was a delay in anybody taking very effective remedial 
action, but it became apparent as I did mention, that some of 
the organophosphates that were used were purchased locally, 
presumably in a bazaar, who knows where, with Arabic 
instructions on them so there was no possibility of those using 
them understanding the very considerable dangers, the 
precautions they should have used nor provided the basic advice 
then available here in London in other departments for those 
manufacturing organophosphates and for those using them in 
other wars.
    Lord Morris, you are absolutely right some of the people 
were absolutely saturated. Then of course the question was 
raised and the MoD has tried to use this as a way of trying to 
explain why they did not follow this. In those circumstances 
why didn't all those people concerned go down with a very 
serious illness and it may be members of your team have seen 
this illness. It would appear some people are more genetically 
vulnerable to organophosphates than others and this has been 
proved in the agricultural field alike. It shows again the lack 
of medical follow-up.
    Mr. Shays. Let me just say that is a wonderful statement 
that after lunch we can introduce those in the medical 
community and academic community who will speak to the issue. 
Mr. Perot you have the floor for ten minutes.
    Mr. Perot. I would like to thank you for your honesty, 
integrity and courage for taking these issues to parliament for 
the armed services. I know how much that meant to them and God 
bless you for what you are doing. All the studies on the 
organophosphates I can truly say from World War II where the 
question was did you have flat feet, if we get all the things 
going you are trying to get done, genetic makeup, our 
vulnerability to many of the chemical and biological weapons 
out there, I would like to ask you, our government is now being 
very aggressive, looking at all these issues. Our real 
challenge is to get the British government take the same 
aggressive attitude. Let's find out what the problem is, so on 
and so forth. What is the realistic way to get the British 
government to react? We had the same problem. We had all these 
people in place saying ``this is not right'' so on and so forth 
and now we are really starting to move. It's late but better 
late than never. But, in terms of protecting our troops and 
population in the future it is important to get it done. What 
would be your advice for the best way of getting it done?
    Mr. Tyler. Rather than giving you advice we are taking your 
advice because you are one step ahead of us. There are three 
elements critical to us. We as representatives don't give up 
and don't intend to give up as you have not else you would not 
have been here. Second, media interest. I don't know to what 
extent it has happened in the States but here on television, 
radio and written media there is a continuing concern to the 
way we treat our veterans and I pay tribute to the way the 
Daily Express has taken up the case and done a grand job. The 
third thing is we learn from one another. It is absurd people 
who stood shoulder to shoulder in the Gulf can't stand shoulder 
to shoulder about the work being done with their veterans.
    Mr. Shays. If I can just interrupt, that key point is why 
we are here. We are shoulder to shoulder, we are trying to 
learn from you and you can do some learning from us.
    Mr. Perot. Anything that we can do that would be helpful we 
are right there. Again, my question has already been asked but 
I want to thank you because I understand this is a lonely 
mission but the military troops are on long lonely missions all 
the time with their lives at risk and it takes time and energy 
to stay on top of it. Thank you so much.
    Mr. Shays. Thank you, Mr. Perot. I won't take my full ten 
minutes but just respond, Mr. Tyler, to your point about 
organophosphates. We also want to respond to you, Mr. Laws. You 
were almost having to explain why you were here because of a 
constituent and I think that is important to continue to 
emphasize we are laymen in our field. We are members of 
Congress, members of Parliament but it tends to be onerous. It 
is like going to a large university, getting a passing grade 
but then we specialize in a few areas and we respond to our 
constituency. All of your constituents would want you to 
respond to the few and in the case of my work in Connecticut I 
have already mentioned one gentleman, an air force pilot who 
served in the Gulf War. There was another one who was told his 
job was to spray the Iraqi prisoners and he did it in a large 
tent with no ventilation with no air conditioning and he spent 
eight hours a day, give or take, day in and day out spraying 
prisoners, tens of thousands of prisoners with lindane which is 
an organophosphate. Shortly after he contracted pancreatic 
cancer and died and there was incredible effort on the part of 
the government to say no connection.
    We went out and came back with this answer, but what amazes 
me is we focussed on the workplace. We would never have allowed 
lindane to be used in that way without preventive gear, 
ventilation, so on. Probably what we have learned as well, you 
all in Great Britain have this same practice as we have in the 
US and that is we can order our troops to do something that 
would be against the law to do.
    Finally I want to say there will be more wars and it is 
incredibly sad we have not learnt from previous wars. I also 
had a constituent who had lung cancer. He had sprayed British 
airplanes involved in nuclear tests in the US. Listen to this 
answer. He was denied benefits because he was not cleaning an 
American plane so the view was it was not a US airplane. We had 
to come back and say ``But he was under US command to clean and 
wash down that airplane.''
    So, I don't have questions because you all have done a 
wonderful job. I would just finally conclude by saying is there 
anything we should have asked you that we should make part of 
the record, anything you feel needs to be put in the envelope?
    Mr. Allen. I think the government should set up a Gulf War 
compensation scheme; they should set up a proper treatment 
program similar to America and there should be a public inquiry 
into Gulf War Syndrome.
    Mr. Laws. I would like to say finally in response to Ross 
Perot's question, what will get a public inquiry. It is clearly 
going to require an independent external force on the 
government rather than a response to the veterans who for many 
years have been fighting this case. That is why it is so 
important that the Shaun Rusling case got such a high profile, 
but you came to the country and that gave a terrific boost to 
put it back on the agenda.
    Mr. Tyler. I think your words about the necessity to take 
advantage of some of the specialists I hope will be partially 
fulfilled this afternoon. Not only have we got Malcolm Hooper 
but also Dr. Goran Jamal who has already given evidence to you 
and I have worked with him on the neurological effects of 
organophosphates and I am sure you will find that extremely 
helpful.
    Lord Morris. Can I say how sad the Countess of Mar was not 
to be able to come. I am sure Margaret, had she been here, 
would have been very proud of our witnesses.
    Mr. Shays. I can say for the record we met with her in the 
US and we met with her here. She was a very compelling person 
who argued that both the US and Great Britain do more to deal 
with this issue.
    We are going to be on recess for three-quarters of an hour. 
We will begin fifteen minutes earlier and I would encourage the 
staff to see all the witnesses are here. I believe all our 
witnesses are invited to lunch. Do get some lunch and then we 
will reconvene in 45 minutes. I thank you Mr. Laws, Mr. Allen 
and Mr. Tyler. Thank you very much.
    Mr. Shays. I would like to call our inquiry to order and 
welcome our panelists and guests. Note for the record that we 
do like the sun, specially in London, but we are probably going 
to want to see the screen a little better and when we are 
looking at the screen the members will sit on the chairs over 
there.
    I will announce our witnesses for this panel this afternoon 
in the order that they will speak. Professor Malcolm Hooper, 
President of the National Gulf Veterans and Families 
Association. Second speaker, Professor Graham Rook on vaccine 
hypotheses relating to multiple immunization programs. The 
third speaker will be Goran Jamal on neurology relating to Gulf 
War veterans. The fourth speaker will be Dr. Mike Mackness on 
paraoxonase and finally number five will be Chris Busby on the 
effects of depleted uranium. We have the five very respected 
panel members and we are delighted that you are here and we 
will start with you, Professor Hooper.

STATEMENT OF MALCOLM HOOPER, PRESIDENT, NATIONAL GULF VETERANS 
 AND FAMILIES ASSOCIATION; GRAHAM ROOK; GORAN JAMAL; AND MIKE 
                            MACKNESS

                  STATEMENT OF MALCOLM HOOPER

    Professor Hooper. Thank you very much, sir. I think it is 
time for you to move now.
    Mr. Shays. I feel very nervous not having a microphone. 
Perhaps I'll take the gavel. You aren't going to get too 
technical on us, are you?
    Professor Hooper. I hope not.
    First of all, thank you very much, Chairman, Lord Morris 
and all the other members of the Panel for inviting us to 
speak.
    [Slide presentation.]
    Professor Hooper. This is who I am and the point I want to 
make here is what we are seeing is the most toxic war in 
Western military history was fought in the Gulf War. The bottom 
line for me and I think many people is truth, justice and our 
shared humanity in common relationship with the land on which 
we all have to live. It involved soldiers, people, military and 
government and the debt of honor which is recognized by the 
Select Committee 2000.
    There are syndromes of uncertain origins described in the 
Merck Manual 1999, 17th edition. It is known as Gulf War 
Syndrome and also known as the ME of the military. All this 
group of syndromes includes ME, chronic fatigue syndrome and 
others, chemical sensitivity all of which have been diagnosed 
on Gulf War veterans. In addition we heard earlier this morning 
about organophosphates. All these clusters of syndromes give 
rise to a large number of disorders of the various systems in 
the body: neurological-ans, pns, cns, cardiovascular immune 
system, gastrointestinal, respiratory, endocrine system. 
Anything left? They are all disturbed in one way or another, 
but the comment that you see very often is that patients 
complain of disabilities; despite the wider range of 
disabilities the routine laboratory tests are strikingly 
normal. That is the reason for doing a number of routine tests 
in my book.
    But, one explanation is that this is all in the mind; it is 
in the mind. That is one explanation. This is another 
explanation we have been working with where all these 
overlapping syndromes have dysfunctional states which cover 
many systems. The brain immune system, the gut, the endocrine 
system. So we have tryptophan, sulphate and lipid metabolism as 
being part of that story. We have heard about that today.
    I want to quickly go through this. Too many vaccines given 
simultaneously. The MoD admits to 10 but you heard this morning 
that it went to 14--
    Mr. Shays. Can you talk a little slower and we are going to 
ask you to look at the transcript and see the words are put in 
a way that would be helpful.
    Professor Hooper. Okay, 10 vaccines were admitted by the 
MoD but you heard this morning some people had 14. One Gulf 
veteran whose record we managed to reconstruct, had 18 in one 
day. Another had 14 in two days in the Gulf. USA troops in fact 
had 17 vaccines they received. They were given too close 
together, in wrong combinations, live vaccine, cholera and 
yellow fever negate their response. In defiance of established 
protocols which are well written up in medical reference text 
books and three UK studies have found 2-3 fold excess of 
symptoms among Gulf War veterans and an association of symptoms 
with vaccines.
    The evidence against vaccines now is overwhelming in my 
judgment. The study by Kings College is the first DOD report, 
then Cherry and other colleagues at Manchester funded by MRC/
MoD. MRC approved the study and I think one of the most 
important studies was done by Steele in the Kansas State study. 
I think this is a very definitive slide because what it shows 
is if soldiers were not given the vaccine only 3.7 percent came 
up with symptoms like the Gulf War Syndrome. People who were 
vaccinated but did not go to the Gulf, 11.5 percent of these 
people showed Gulf War Syndrome. People who were vaccinated and 
went to the Gulf showed 34.2 percent. This is clear evidence 
that the vaccine played a clear role. The Rook-Zumla hypothesis 
was in 1997, not 1999. Graham Rook is here to provide a deeper 
understanding of what that means but he recognized that the 
vaccine could provide some information.
    The government independent panel has this title, it is not 
my summary, it is its full title. All it does show is animal 
studies. It has not looked at human beings at all. Guinea pigs, 
mice and marmosets. The mice study will not be finished till 
later this year; marmosets in 2003 and this is 12 years on and 
then it is only with marmosets. The panel has been excluded 
from conducting or recommending any studies of sick Gulf War 
veterans. This has been challenged three times in its meetings 
and three times the answer has been no.
    Another important point is the cholinergic triple whammy 
which includes pryadostigmine bromide which you heard so much 
about, organophosphates, carbonates and sarin tabun vx agents 
and possibly mustard gas. The inhibition of AchE leads to 
increased levels of acetylcholine in all four systems and the 
consequence is synergism. There is synergism between the two 
compounds causing multiplication of something like 10 x 200 
fold. Paraoxonase is being looked at by Mike Mackness and Goran 
Jamal who present on the new role solely of the consequences.
    Pyridostigmine bromide. PB cannot be ruled out as a 
possible contributor to the development of unexplained or 
undiagnosed illness in some Gulf War veterans. I raised this in 
a paper to the Select Committee in 1999. The use of PB may 
reduce somewhat the effectiveness of post-exposure treatment 
for non-soman nerve agents. So you are into an issue of trading 
off uncertain health risks against uncertain gains which is not 
helpful.
    Pesticides or organophosphates. These were extremely widely 
used. It was denied then there was an apology. Diazinon, 
malathion, some unknown from local sources. No proper 
protection for the operatives or the troops. 1 HSE trained 
operative diagnosed by MAO as organophosphates poisoned. It is 
highly contentious and political because these were used by 
agriculture, fish and other civilian usage. Pyrethroids and 
lindane were also widely used and deet also very widely used in 
large quantities. In addition, synergy has been demonstrated, 
see Abou Donia et al in the States and you are familiar with 
that work.
    Chemical warfare nerve and mustard agents. Sarin, Tabun, 
VX, no soman. Work in the States suggests there was no soman so 
we need not have used PB at all. What was the source? Opening 
air war, demolition of Khamisiyah and possibly some scuds. 
Frequent alarms, all false, disabled, ignored and there was 
persistent low level exposure not at a killing level. Eye 
witnesses repeatedly confirm the presence of nerve and mustard 
agents and we have had news from the Czech teams about this. 
They have dismissed equipment as faulty not credible now 
recognized as reliable. Does low level exposure give rise to 
chronic damage? Yes from 1970 onwards.
    This is the DU story and Chris Busby is going to talk about 
this. This is a depleted uranium penetrator. A depleted uranium 
shell equal to a dirty bomb using nuclear waste; 350 tons at 
least were fired in the Gulf War and the hazard has been known 
and understood since the 1970s. Health risks are impossible to 
quantify according to a 1994 report and remedial action was 
required--
    Mr. Shays. Let me interrupt you. I am not asking you to 
shorten this but how much more time do you need?
    Professor Hooper. Just one more.
    Mr. Shays. Please proceed.
    Professor Hooper. There were no orders to the troops about 
this, no advice, the troops were knowingly exposed because 
people knew the material was being used. This resulted in 
thousands of unnecessary exposures. The response by the 
government was last year and the depleted uranium oversight was 
discovered in 2001. So, nothing was done for twelve months.
    This is an American veteran, he came back with his child, 
you can see the damage to the child. This is an Iraqi child, 
the photograph taken in Iraq, taken by Professor Guenther and 
you can see the damage to the structure of the limbs.
    The Medical Assessment Panel has seen some 3000 Gulf War 
veterans. Papers and letters have been written by the various 
teams since 1996. The latest paper is extraordinary in claiming 
that of the last 1000 veterans seen by the panel 80 percent 
were well but well with symptoms or organic disease which is 
not my definition of well. They have turned to somatization, 
war syndromes and explained Gulf War Syndrome and this was 
roundly rebuffed by your Committee as I understand it--
    Mr. Shays. Our Committee?
    Professor Hooper. In Washington. The letter was 
contemptuously rejected which said war syndromes were the cause 
of the problem. We have also got now three categories of the 
disease, not contentious: Motor Neurons Disease-2-3 times; 
cancer of kidneys found in large excess and chronic lymphocytic 
leukaemia ten times.
    Mr. Sanders. That is ten times more for Gulf War veterans 
than civilians?
    Professor Hooper. Yes, from the three determined in the 
medical profession. There appear to be no records of these or 
any other diseases kept in the central program so we often 
don't know what is going on. This is a quote from a letter from 
a medical assessment panel:
    ``Very substantial progress has been made on Gulf War 
related illnesses...the most telling feature being that they 
are primarily psychological dysfunctions...recorded since at 
least the American Civil War. Not unique to Gulf conflict. No 
illnesses specific to participation in Operation Grancy. He has 
a psychiatric illness. I hope he will not waste his time, 
energy, aspirations chasing after non-existent organic 
explanation that will never be found.''
    That is the official line. Conclusions. It is not a result 
of somatization or a manifestation of a general war syndrome. 
It is not primarily a result of PLSD. It has multiple causes 
not a single cause. It is an organic illness affecting multiple 
systems resulting from the unique multiple exposures suffered 
by Gulf War veterans.
    [The statement of Professor Hooper follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.071
    
    [GRAPHIC] [TIFF OMITTED] T9074.072
    
    [GRAPHIC] [TIFF OMITTED] T9074.073
    
    [GRAPHIC] [TIFF OMITTED] T9074.074
    
    [GRAPHIC] [TIFF OMITTED] T9074.075
    
    [GRAPHIC] [TIFF OMITTED] T9074.076
    
    [GRAPHIC] [TIFF OMITTED] T9074.077
    
    [GRAPHIC] [TIFF OMITTED] T9074.078
    
    [GRAPHIC] [TIFF OMITTED] T9074.079
    
    [GRAPHIC] [TIFF OMITTED] T9074.080
    
    [GRAPHIC] [TIFF OMITTED] T9074.081
    
    [GRAPHIC] [TIFF OMITTED] T9074.082
    
    [GRAPHIC] [TIFF OMITTED] T9074.083
    
    [GRAPHIC] [TIFF OMITTED] T9074.084
    
    [GRAPHIC] [TIFF OMITTED] T9074.085
    
    [GRAPHIC] [TIFF OMITTED] T9074.086
    
    [GRAPHIC] [TIFF OMITTED] T9074.087
    
    [GRAPHIC] [TIFF OMITTED] T9074.088
    
    [GRAPHIC] [TIFF OMITTED] T9074.089
    
    [GRAPHIC] [TIFF OMITTED] T9074.090
    
    [GRAPHIC] [TIFF OMITTED] T9074.091
    
    [GRAPHIC] [TIFF OMITTED] T9074.092
    
    [GRAPHIC] [TIFF OMITTED] T9074.093
    
    [GRAPHIC] [TIFF OMITTED] T9074.094
    
    [GRAPHIC] [TIFF OMITTED] T9074.095
    
    [GRAPHIC] [TIFF OMITTED] T9074.096
    
    [GRAPHIC] [TIFF OMITTED] T9074.097
    
    [GRAPHIC] [TIFF OMITTED] T9074.098
    
    Mr. Shays. Thank you. A wonderful job.

                    STATEMENT OF GRAHAM ROOK

    Dr. Rook. First I would like to thank you for this 
opportunity to address you on this question. I want to start by 
making the point that Gulf War illnesses are going to have 
extremely complex causation and we must not think of the 
different hypotheses being in competition with one another. The 
effects seen in individual veterans will be an ``integration'' 
of all the usual exposures to which they were subjected in the 
context of individual histories and genetic backgrounds.
    Now, you have heard a little bit from Malcolm about the 
epidemiological links which seem to exist between vaccines and 
Gulf War illness, so I do not need to go into those in detail 
but you will remember that it appears even if not deployed, 
there were more symptoms and it also seems there was a dose-
response relationship with symptom scores and the experimental 
vaccines, plague and anthrax administered with pertussis seems 
to be to blame. As well as that epidemiology there is a study 
which has been submitted for publication from Dr. Mark Peakman, 
a study of immunology superimposed on the epidemiological 
studies which Simon Wessely and his department has undertaken 
so there is a balance with the appropriate control groups and 
that study is showing significantly increased expression by 
peripheral blood lymphocytes, particularly interleukin 4 and 
interleukin 10. You might want to remember those two because 
they will turn up again.
    Now, the hypothesis that we put forward in 1997 was that 
long-term changes in the balance of the immune system could be 
caused by multiple vaccinations. This would be exacerbated in 
psychologically and physically stressed individuals and also by 
the chemical exposures and this could lead to a diverse range 
of symptoms including mood changes. So, I am going to show you 
in the five years new types of information have come forward to 
show the hypothesis was not as crazy as it was thought 
originally and it is within the epidemiology and the immunology 
done.
    Here is a slightly complex diagram. There are three 
players. On the left you have a bacterium and a list of 
components, it could be a vaccine, for instance. In the middle 
you have the antigen-presenting cell and on the right 
lymphocytes. Starting with the uncommitted lymphocytes which 
can turn into attaching lymphocytes, Th1 or Th2 or the green 
fellow there called Treg, the antigen-presenting cell is the 
one that tells ThO what to become, what pattern of immune 
response is actually needed, but it makes that decision on the 
basis I have drawn it, rather fancifully as a kind of keyboard, 
a large number of signals it gets from the bacteria, it is 
exposed; it is trying to decide which sort of organism it is 
and which sort of response is appropriate in response to that 
organism.
    Say you played the chord of C sharp, you arrive at Th2 and 
with B flat you get another lymphocyte. With others you get 
regulatory cells. In the last few years it is clear that these 
are unrelated to alogens in the atmosphere or air zone cut 
content or because once these cells have picked up those 
signals they wander up into your spleen or other lymphoid 
tissues where they now have a different way of presenting what 
other antigens they receive.
    What sorts of evidence do we have that bacterial components 
such as we find in a vaccine do indeed exert long-term systemic 
effects on immulogical responses? Firstly there is the animal 
model work. Much of it happened since 1997. Experimental models 
of ``diseases of immunodysregulation.'' There is the immune 
system which has gone wrong. There the body is attacking itself 
where allergens are in the air and inflammatory bowel diseases 
attaching to the bowel. There are many listed in the statement 
showing you can block or enhance allergic disorders and 
autoimmune disorders by vaccines and microbial components and 
showing the induction of the regulatory T cells by the single 
injection of a bacterial component. With the regulatory T cells 
they turn off the response to something entirely unrelated to 
the bacterial vaccine itself.
    The first author there is from a large pharmaceutical 
company and I will mention why that is a relevant point later. 
When we wrote the paper it was already known that from the 
consequences of routine vaccination of the public we could 
already suggest that certain vaccines were having an effect on 
the public, causing death in children, switching to Th2 status. 
The guy who announced that lost his job until a group in 
Baltimore proved him right and now it is no longer used. These 
are non-specific effects on overall survival from all causes. 
Then if we--
    Mr. Shays. Can I just add to this. Tell me why what you are 
saying is important? I need to put this into context.
    Dr. Rook. It is important because it was saying that giving 
a massive load of vaccines in the Gulf War could have systemic 
effect on their overall immune systems for many years after. It 
is important to show that we see it in the ordinary public; 
just by giving ordinary vaccines we have an effect on the 
systemic system. The exploitation of beneficial effects of 
microbial components in clinical trials for treating diseases 
of immunodysregulation is going ahead at a great rate in 
allergic disorders-mycobacteria, lactobacilli, CpG motifs; DNA 
has been the subject of an $18 million deal by Pasteur. Here we 
have a type of effect of microbial components regulating the 
immune system, getting pharmaceutical companies to put hundreds 
of millions of dollars in it and yet we still have the problem 
of persuading war departments to accept it.
    Now we have the Gulf War vaccination schedules. There is a 
huge amount of evidence given in my statement. This is an 
example of the overall child survival. You can see the blue 
line in children not given the vaccine; the dotted line, the 
BCG increased survival from all causes, partially offset by 
giving DTP as well. This is nothing to do with the diseases to 
which the vaccines are directed. They are non-specific 
vaccines.
    The next element from the hypothesis was the effect of 
stress. What is so neat about all this is pretty much tending 
to become Th1 or Th2 or a regulated cell. But if you stress 
people they turn out more cortisol, more noradrenaline from the 
sympathetic system and cortisol and noradrenaline tell the 
system to turn off the Th1 cells and to turn on the Th2 cells 
and regulatory cells. Also, within the last couple of years 
Kevin Tracey in New York has realized that in fact 
acetylcholine is also a major regulator of these cell types.
    So, if you give them that you will also be accelerating the 
acetylcholine and curiously I do not think Kevin Tracey has 
been brought into the dialogue on the matter but he is the one 
that knows more about this in the world.
    [The statement of Dr. Rook follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.099
    
    [GRAPHIC] [TIFF OMITTED] T9074.100
    
    [GRAPHIC] [TIFF OMITTED] T9074.101
    
    [GRAPHIC] [TIFF OMITTED] T9074.102
    
    [GRAPHIC] [TIFF OMITTED] T9074.103
    
    [GRAPHIC] [TIFF OMITTED] T9074.104
    
    [GRAPHIC] [TIFF OMITTED] T9074.105
    
    [GRAPHIC] [TIFF OMITTED] T9074.106
    
    [GRAPHIC] [TIFF OMITTED] T9074.107
    
    [GRAPHIC] [TIFF OMITTED] T9074.108
    
    [GRAPHIC] [TIFF OMITTED] T9074.109
    
    [GRAPHIC] [TIFF OMITTED] T9074.110
    
    [GRAPHIC] [TIFF OMITTED] T9074.111
    
    [GRAPHIC] [TIFF OMITTED] T9074.112
    
    [GRAPHIC] [TIFF OMITTED] T9074.113
    
    [GRAPHIC] [TIFF OMITTED] T9074.114
    
    [GRAPHIC] [TIFF OMITTED] T9074.115
    
    [GRAPHIC] [TIFF OMITTED] T9074.116
    
    Mr. Shays. Give me a sense of how many more slides you 
have.
    Dr. Rook. Maybe two. I think it is two.
    Mr. Shays. Well, you can have three slides.
    Dr. Rook. It is only two.
    Mr. Shays. Take your time.
    Dr. Rook. This is the question of how could changes in 
cytokines affect mood. There are a number which cause sickness 
behavior: Sleep, diminished sexual activity, fever, appetite 
control. They are not fanciful animal experiments, they are 
certain now. If you give them to cancer patients or patients 
with hepatitis or immunological mediators you get profound 
depression. Goats get depressed but become manic upon 
withdrawal of the material. Similarly, it is now clear that 
twin studies relate Th2 disorders to depression. We can see 
that from studies coming out of Denver.
    So, the balance of the immune system affects moods in some 
extremely subtle ways and I come to my summary slide which puts 
all of this together. Over on the left there we have some of 
the influences to which the Gulf War veterans were exposed: 
Extreme stress, AChE inhibitors and vaccines. The evidence to 
suggest that the effect would have been to take them away from 
Th1 and towards an unbalanced response with too many regulatory 
cells, the evidence there is extremely powerful.
    The next result will be an unbalanced immune system. It is 
exactly what has been found by Dr. Peakman's study and one 
would expect such things as poor response to infection and 
rather subtle effects on mood. That is all I want to say.
    Mr. Shays. Thank you very much. Two very, very interesting 
presentations.

                    STATEMENT OF GORAN JAMAL

    Dr. Jamal. Thank you, Mr. Chairman and honorable members. I 
am absolutely delighted to be here, again to give evidence. I 
am going to talk about the nervous system and why it seems to 
be the target area in the Gulf War veterans. This is the 
nervous system-I will come to them, the nature of the symptoms 
actually reflects on each internal organ, kidney, liver, you 
mention it. So, the apparent multi-symptom is really not a 
multi-symptom at all. It is a reflection.
    This was the original study, which was multi-factorial. It 
is not one factor it is a cocktail of a lot of factors. The 
organic system has many patterns. It involves all the internal 
organs. It is very illusive to clinical examination. That is 
easily overlooked. The assessment is easily overlooked. 
Everybody knows that, but also the symptoms of the system is 
extremely incapacitating with the patient and it is not 
measurable by any standard of clinical protocol.
    We have looked into this system by looking at about 13 
different approaches. Most people use one or two, we use 13 to 
cover most of the aspects because it is a multi system organ 
and this is the frequency of the abnormalities we found in the 
Gulf War veterans.
    Again, if you look at the profile and pattern of this, 
there are 13 different examinations and this is the frequency, 
60 persons and if you take 80 persons they produce exactly 
identical profiles. That profile has been compared with the 
chronic organophosphate one where we found similarities but not 
identical. It was the different profiles you could see despite 
the similarity of the symptoms but when you look at the 
different components of the system they are not similar.
    This slide shows we have three patients. It is not Motor 
Neurons Disease but in these patients we found both brain stems 
and pharmacological involvement. Here is the guy telling me 
they have not had anything similar to that in that department 
at all. `This was not similar to anything. We have not been 
able to carry this through, we don't have funding.' This is 
about <brit-pound>5,000 each. We have proposals for the 
research. I think I will stop there except to say one important 
thing:
    I have one other side to this one. This is a slide which 
shows pharmacological works. We publish on organophosphates and 
this was funded by the government. This is one example. If you 
look at the red dots, the red diamonds versus the blue, the red 
ones are those with acute poisoning and we followed them up 
while the blue ones are those with no acute poisoning just 
continuing long-term effect. There are farmers and the black 
ones are the control. You see the departure between the acute, 
the chronic and the others but these were just some slides.
    We looked at more than 600 farmers in a cross-sectional 
epidemiological study following this particular study and we 
have demonstrated in that population that the incidence of 
disease were normal farmers with illness. They were cross-
sectional of farmers in the North of England and Scotland. In 
the North East it was 18 percent in this normal population 
compared with 0.5 percent in the phosphates--
    [Alarm bells ring.]
    Mr. Shays. Could you make the last point you were making 
when the bells came on?
    Dr. Jamal. I think the point I am trying to make is when we 
looked at a normal population cross-section of the entire 
farming population in Scotland and North East England, the 
study was more than 600 farmers with neurological symptoms and 
then we took a section of them for more toxic examination, we 
found a normal healthy-looking population but they were just 
farmers. We found the incidence of neuropodia was 18 percent in 
this population versus a normal incidence of neuropodia in the 
general population of 0.2 to 0.5.
    Mr. Sanders. Normal healthy-looking farmers are being 
poisoned, is that what you are saying?
    Dr. Jamal. Yes. Just to summarize what I am saying, what I 
mean in a nutshell, in summary, if the nervous system--the 
nervous system is a different component including the central 
nervous system the brain cells and seems to be primarily 
involved in the Gulf War syndrome and there are perfectly 
reasonable explanations as to why and what the patterns are and 
how the injury has happened to the nervous system.
    The other thing is that what looks to people as apparently 
multi-system involvement might not really be a multi-system 
involvement although there is more than one factor culminating 
in the production of the injury.
    Mr. Shays. Thank you, excellent presentation as well. Dr. 
Mackness, are you next? I am going to ask you to talk to Ross 
Perot and we might hear you better through the microphone.

                   STATEMENT OF MIKE MACKNESS

    Dr. Mackness. I would like to thank the Committee for this 
opportunity to speak to you. I work primarily on an enzyme 
called paraoxonase which occurs in human plasma and serum and 
we have heard a lot today about organophosphates and this 
enzyme is the link perhaps between organophosphates and 
illness.
    If I could just summarize the worldwide use of 
organophosphates, they are used for many things: insecticides, 
plasticizer, fire retardants nerve gases and in some cases 
medicines. Of 7.5m kg of organophosphates, just three types of 
organophosphates are used annually in the US alone, not 
wordwide, this is just the US. Worldwide production is 
estimated at 150m kg/year and deaths about 200,000 a year from 
organophosphates poisoning in agricultural use.
    [The statement of Dr. Mackness follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.117
    
    [GRAPHIC] [TIFF OMITTED] T9074.118
    
    [GRAPHIC] [TIFF OMITTED] T9074.119
    
    [GRAPHIC] [TIFF OMITTED] T9074.120
    
    [GRAPHIC] [TIFF OMITTED] T9074.121
    
    [GRAPHIC] [TIFF OMITTED] T9074.122
    
    [GRAPHIC] [TIFF OMITTED] T9074.123
    
    [GRAPHIC] [TIFF OMITTED] T9074.124
    
    [GRAPHIC] [TIFF OMITTED] T9074.125
    
    [GRAPHIC] [TIFF OMITTED] T9074.126
    
    Mr. Sanders. Where are you getting that number from, sir?
    Dr. Mackness. The World Health Organization.
    Mr. Shays. Because it has come up and we have a question: 
Is that because of people who have no knowledge how to use it? 
I am not trying to be funny.
    Dr. Mackness. Can you define ``how to use it''?
    Mr. Shays. Among sophisticated users.
    Dr. Mackness. That is tending to be less frequent in the 
industrialized world. Suicides through organophosphates are 
much more frequent in the non-industrialized world.
    Mr. Perot. Are the instructions with the farmers? Let's say 
it is made in the US, are the instructions in the language?
    Dr. Mackness. The instructions should be in the language of 
the country.
    Mr. Perot. If the farmer can read.
    Mr. Shays. I am going to ask you to talk a little louder.
    Mr. Sanders. Having started the interruptions, we are rude 
Americans! You mentioned suicides. We heard earlier today that 
some 98 British veterans committed suicide but it seems a large 
number. What is the connection between suicide and the 
organophosphates poisoning?
    Dr. Mackness. What I meant was when people drink 
organophosphates to commit suicide.
    Mr. Shays. We are going to try and get back on your target.
    Dr. Mackness. Of course there are some instances of extreme 
use of organophosphates. I do not really need to go through 
this. I think we all know what the problem is, but the one big 
problem with these compounds is that you can actually make the 
organophosphates in your garden shed which is twenty times more 
toxic than cyanide gas. Some acute toxicity symptoms are rather 
undefined at the moment, in fact they are not defined at all. 
In the 1950s Norman Aldridge discovered a classification of 
esterases which he called A-esterases which detoxify 
organophosphates. This distinguishes from the B-esterases which 
are inhibited by organophosphates. They inhibit the nervous 
system and prevent nerve transmission.
    Work on paraoxonase began in the 1960s by a gentleman 
called Russell Main in the States. He actually injected 
partially purified paraoxonase into rats and showed that it 
reduced the toxicity of organophosphates. If you compare the 
thickness into four divisions for mammals and birds you can see 
the birds are more susceptible to organophosphates poisoning 
and that is because they have no paraoxonase. Further evidence 
from GCLA, if you actually knock out paraoxonase gene in mice 
they are extremely susceptible to organophosphates. So, all the 
evidence is that serum paraoxonase is extremely important in 
mammalian metabolism of organophosphates.
    This is a background about the enzyme, this is the 
important property of the enzyme for humans. It actually has 
what are called polymorphisms. They are in the coding region of 
the protein, position 55 and 192. They are only found in humans 
and it means genetically you can inherit four or a combination 
of four possible isotopes of the enzyme. They all differ in 
their speed of hydrolysis of any given substrate but they also 
differ in what substrates they are more active to.
    So, if we simply take the 192 and the Q is more active to 
diazoxon sarin and soman there is no difference in activity 
with phenylacetate, chloropyrifos oxon and 2-naphthyl acetate, 
but the R form is more active with paraoxon, methyl paraoxon, 
chlorthion oxon, EPN oxon and armine. So, not only do you have 
those forms that differ in the rate of say, diazoxon, they are 
actually coming the opposite way round. So, the question that 
we were asking, myself and my wife have done a lot of this 
work, is what is the role of PON in OP toxicity in man?
    So, we hypothesized that different PON isoforms may be 
important in determining OP toxicity. These are the different 
isoforms. The red one is the LL and this is hydrolysis of 
paraoxon and you can see that is far more active towards 
paraoxons and the MM/QQ is far less. So, this illustrates the 
difference in rates of hydraolyses you can get in the different 
isoforms.
    We have actually conducted a study of sheep farmers who had 
done dipping. Some had become ill and some had not. That is 
cases in red, the ones that were ill, reference in yellow of 
those who were not and basically if you look at the right-hand 
three columns, these show there is an increased frequency for 
these particular increased isoforms. These particular isoforms 
happen to be the ones least able to hydrolyse the active 
component of sheep dip used in the UK which is diazoxon. In 
fact, the odds of you actually having symptoms of 
organophosphates poisoning were 2.4 times greater in the lower 
print out, in other words the least effective your ability to 
get rid of paraoxon, the more likely you were to have symptoms 
of organophosphate poisoning.
    That said, we conducted a study with the Gulf War veterans 
where we actually looked at paraoxonase in Gulf War veterans 
compared to healthy controls. It is the two top panels you want 
to be looking at here. You can see the veterans and I apologize 
for the abbreviation of 'vets', have much less ability to 
absorb and they also have a very much lower paraoxon 
concentration. That means independent of any of the isoforms no 
matter what isoform they have, they have lower paraoxonase 
activity.
    Again, it does not matter what isoform they have, they have 
lower concentration. So this is in an effect that is 
independent of any of the generic effects on--
    Mr. Shays. That is on all veterans, general?
    Dr. Mackness. Yes.
    Mr. Shays. Not just sick veterans?
    Dr. Mackness. No, all veterans. This just shows you that 
the PON 1 allele were not fit for distribution between the two. 
So you have an independent genetic list. This illustrates that 
in that.
    In summary, low paraoxonase in Gulf War veterans does 
require much further investigation as it may be involved in the 
aetiology of the Gulf War syndrome complex. If you want me to 
put that into context, low paraoxonase activity is associated 
with cardiovascular disease, particularly in diabetes. People 
who are prone to the development of diabetes tend to all have 
low paraoxonase activity. So, there is a link between actually 
having low paraoxonase activity and development of some major 
diseases. Thank you.
    Mr. Shays. Thank you. We will go to you, Dr. Busby and we 
can go up front. Dr. Busby, I think you are our last speaker 
and then we will proceed with the questions.
    Dr. Busby. Thank you very much, all of you, for inviting me 
here to talk about what is effectively an effect of the Gulf 
War low dose radiation. I have prepared a statement here and I 
am sure you have copies of that and I am not going to just read 
it out but I hope to cover the major issues.
    In the last five years there has been increasing 
understanding that there is something very wrong, risks 
associated with estimating the health consequences of exposure 
to the low dose radiation, in particular internal radiation. By 
internal radiation I mean radiation inhaled or ingested, 
particularly man-made isotopes or new forms of natural isotopes 
and uranium. Uranium is one example of this. As a result of 
this and persuasive evidence, there is a problem in the 
understanding of these health effects, the British Government 
has now set up a committee called Cherry, examining the risks 
from radiation.
    This is a major step and implies the British government is 
sufficiently concerned about the issue to investigate it. It 
covers a very wide area and exposure to places like Sellafield 
and the nuclear industry and this has been a discussion that 
has been around for a very long time, during the Cold War and 
atomic weapon testing in the 1960s which was banned, as you may 
recall, in 1963.
    Well, I am on this Committee and I was actually responsible 
for the acronym, I suppose you would say that led to this being 
set up but the European parliament is also asking for similar 
investigations and the well-known organization called Kyoto 
also did so because I believe that the question of DU, the 
question of Gulf War syndrome, where we have the problem is 
consequent upon exposure to the uranium. Of course, there are 
other agents that are involved in Gulf War syndrome and if I 
had to choose between the various syndromes that there were and 
trying to lay the cause of it in some place, I would say the 
neurological syndromes were probably consequences of chemical 
poisoning but there are a whole range of effects associated 
with mutation and I think a lot of these effects are caused by 
the exposure to the radioactive particle produced when uranium 
weapons hit the target.
    The uranium, as you know is a very dense material that is 
used because it enables tanks to be taken out, but when it is, 
the armor turns into very small microns of uranium oxide 
particles and they are very active and very mobile and very 
long lived in the environment. Also, in sunny weather they can 
be suspended.
    I visited Iraq and Kosovo with measuring equipment and I 
have been able to go in both those places some years after the 
war and there is a considerable amount of uranium activity in 
particles. So, the idea that these particles somehow magically 
dissipate after the war and are not harmful is quite wrong. I 
could have brought you particles and shown you.
    So, the main danger from internal radiation, the health 
effects of radiation have been traditionally tests on external 
radiation, external acute radiation from Hiroshima so people 
standing outside at the time of the Hiroshima bombing, there 
was an enormous flash and they would receive a large dose and 
in terms of cancer in these people they have decided through 
international commissions on radiology that these low dose 
cases are reasonably safe and on this basis the routine reports 
like by Sellafield which is the nuclear site in the UK, have 
been discounted. In other words, the radiation or the cancer is 
because the dose is too low but it is only the external dose 
that is considered.
    The internal dose from the particles ingested or inhaled is 
dealt with as if it were an external dose. It is diluted into 
the whole body and this is essentially the problem with the 
radiation logical assessment and why it is in error. Recently 
we were able to show, my colleague and I, as a result of an 
investigation of infant leukaemia following Chernobyl and 
particles following Chernobyl, they were measured between 100 
fold and 1,000 fold and some Israeli people have also looked at 
genetic mutation in the offspring of Chernobyl and come to 
similar conclusions.
    There is a very large error in the assessment of the risk 
from internal radiation. A good way to show this to you, it is 
rather like assuming the same from sitting in front of a fire 
to warm yourself or reaching into the fire and eating a hot 
coal. It is exactly the same dose, the amount of energy is the 
same. In the case of uranium also you have very, very large 
quantities.
    Now, 350,000 tons of uranium was dropped on Iraq and when I 
went there I could measure a lot of the environment in relation 
to cancer and, of course, the particles there are still air 
borne in the atmosphere and going into the system and from 
there they take a very high dose of the tissue resulting in 
lymphoma and leukaemia and any other cancer or mutation. There 
is an increase in genetic mutation and inheritable genetic 
damage so you get children born with inheritable conditions 
and, of course, it continues on.
    What evidence is there of these effects? One of the pieces 
of evidence is the Gulf War syndrome but leaving that aside, 
very recently there is a study of the Italian Military 
stationed in Bosnia and Kosovo. This is one of the first pieces 
of evidence. The data shows eight-fold increase in lymphoma 
after their period of duty there from Sarajevo. There has been 
20-fold increase in leukaemia and lymphoma. Other evidence was 
from the Iraqi cancer register which you may not believe but I 
have been there and looked at the figure and it does seem to 
show the children born around the time of the Iraq war have a 
high incidence of leukaemia.
    There is also chromosome damage, 13 Gulf War soldiers 
showing chromosome damage which you can approximate equal to 
the sort of damage the Russians measured on the Chernobyl 
liquidator at the time. Basically, I suppose what I am saying 
is that there is now sufficient evidence to suggest that the 
uranium is causing the genetic mutation which will result in 
increasing cancer and genetic damage.
    Is the material measurable in people? Well, actually it is. 
A number of studies have shown that Gulf War veterans contain 
significant high levels of uranium as estimated by isotonic 
radiation and very recently, only yesterday I learnt of a test 
done in this country of 11 Gulf War veterans in which all of 
them were shown to have significantly increased levels of date 
of loss in their urine but two of them had highly increased 
levels of enriched uranium and this raised lots of interesting 
questions about enriched uranium.
    When I was in Iraq I was taken to an area which was 
extremely radioactive. There was yellow material on the ground. 
I tried to bring samples back but they took them away. It 
seemed there was some deployment of crude radio-active weapons 
from the Iraqis or an attack on some facility there but it was 
extremely radio-active there. So we do have a lot of evidence 
that first of all it is out there in the environment. Secondly, 
it is there in the people. Thirdly, that concentration of 
uranium on the people can cause cancer because there are those 
areas of errors in the radiological risk. Fourthly, I believe 
the authorities do not want to open up the reasons of these 
effects because of the financial and political implications. 
Once you go into the radiological implication of what they 
consider to be very low radio-active material then it will 
raise all sorts of questions about people who are exposed for 
further reasons.
    [The statement of Dr. Busby follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.127
    
    [GRAPHIC] [TIFF OMITTED] T9074.128
    
    [GRAPHIC] [TIFF OMITTED] T9074.129
    
    [GRAPHIC] [TIFF OMITTED] T9074.130
    
    [GRAPHIC] [TIFF OMITTED] T9074.131
    
    [GRAPHIC] [TIFF OMITTED] T9074.132
    
    [GRAPHIC] [TIFF OMITTED] T9074.133
    
    [GRAPHIC] [TIFF OMITTED] T9074.134
    
    [GRAPHIC] [TIFF OMITTED] T9074.135
    
    [GRAPHIC] [TIFF OMITTED] T9074.136
    
    [GRAPHIC] [TIFF OMITTED] T9074.137
    
    [GRAPHIC] [TIFF OMITTED] T9074.138
    
    [GRAPHIC] [TIFF OMITTED] T9074.139
    
    [GRAPHIC] [TIFF OMITTED] T9074.140
    
    [GRAPHIC] [TIFF OMITTED] T9074.141
    
    [GRAPHIC] [TIFF OMITTED] T9074.142
    
    [GRAPHIC] [TIFF OMITTED] T9074.143
    
    [GRAPHIC] [TIFF OMITTED] T9074.144
    
    [GRAPHIC] [TIFF OMITTED] T9074.145
    
    [GRAPHIC] [TIFF OMITTED] T9074.146
    
    [GRAPHIC] [TIFF OMITTED] T9074.147
    
    [GRAPHIC] [TIFF OMITTED] T9074.148
    
    [GRAPHIC] [TIFF OMITTED] T9074.149
    
    [GRAPHIC] [TIFF OMITTED] T9074.150
    
    [GRAPHIC] [TIFF OMITTED] T9074.151
    
    [GRAPHIC] [TIFF OMITTED] T9074.152
    
    Mr. Shays. I have a feeling we all have accumulated a 
number of questions we want to ask you and we are going to 
start with Mr. Sanders. We are going to go to Adam Putnam and 
then we are going to go to my colleagues and then Mr. Perot and 
then I will ask questions. It has become a long day but this is 
a very important part of this day. Mr. Sanders, you have a lot 
of questions there, don't you?
    Mr. Sanders. I do. First of all let me thank this panel, 
Mr. Shays, I and Mr. Putnam have been involved in many, many 
hearings and I have to say certainly this panel has been one of 
the most informed we have heard from. I have to tell you my 
emotional reaction and this is a general question that I would 
like anybody here to respond to. In the US we have a saying 
`It's like ships passing in the night'. All of you have done 
very specific evidence. You have done studies, you have done 
tests which show the extremely harmful impact of 
organophosphates of vaccines of the DU. You have your charts, 
you have your concrete evidence and you have presented that 
today. We go back to the US and we have a panel of government 
scientists and representatives from our veterans 
administration, or Department of Defense who are telling us 
after hundreds of millions of dollars being spent on research, 
`Well we just have no evidence that there is anything called 
Gulf illness. We have no concrete evidence at all.'
    So, the first problem that we have is either you are all 
totally crazy which I do not think, needless to say, or 
something is very, very wrong with the state of government both 
in the US in terms of the government and here in the UK. So, my 
very first question to you and you can talk about the UK, is 
what the hell is going on when you have done this research and 
your government is still claiming they do not know if there is 
a problem. Something is crazy here. it's either you or them. 
What's going on?
    [Laughter.]
    Dr. Busby. Well, I have to say, this new committee, the 
Cherry Committee examining the radiation, the reason that came 
about was because of the BSE affair. It is a very large mistake 
that was made in this country and there was a science advisory 
committee set up by the government on BSE. It was chaired by--
    Mr. Shays. This is `Mad Cow' disease?
    Dr. Busby. Yes, `Mad Cow' disease. This committee advised 
the government that BSE could not cross the species and no way 
it could cause any harm and in fact that is entirely wrong and 
so as a result the government became a bit concerned and 
thought an advisory committee might be biased or self-
selecting. So we suggested that they set up a new kind of 
science advisory committee in opposition but set it up to be 
opposition like parliament, like Her Majesty's loyal opposition 
and under those circumstances you had two opposing sets of 
scientists. One from the industry and the others from citizens' 
representatives or from the NGOs and they were brought in but 
the report would include both their positions and then the 
politicians could take evidence from them.
    The reason we did this is in the last years, 20 years, 
anthropologists have turned their searchlights on society and 
primitive people but now they have decided scientists are fair 
game, or ran out of people to study and were surprised that 
scientists are no different from anybody else. If you want to 
go down a particular road, you just accumulate the right sort 
of scientists who allow you to go down that road and this 
potentially is the answer to your question. Science is not 
something handed to us from heaven as nature sees it. It is 
what we put in ourselves and some of the people who put things 
in are not exactly morally honest or people I trust.
    Mr. Sanders. We thought only politicians were political.
    Professor Hooper. The science that has been commissioned 
and done is often poor science designed not to get the right 
answer and there was the study on birth defects showing no 
birth defects among Gulf War veterans' children. it ignored 
whole strands of evidence and was completely biased. Dr. Hans 
Khan from the Gulf War veterans shows there is birth defect 
among them so the initial science was badly flawed.
    The Medical Assessment Panel is working with animals. We 
have the ``animals'' walking round or in bed. They are 
suffering. Why don't they take samples and examine their 
immunology? We have these people who are sick and ill, 
organophosphates have been looked at. Farmers who were working 
but ill. No one looked at the farmers who were too sick to 
work. This is an example of bad science designed not to get the 
answer and this is what happens again and again.
    Dr. Rook. Let me emphasize what Professor Hooper said. The 
problem is getting to the veterans to do any work on them at 
all. The panel here, money is only scanned towards animals and 
epidemiology. It makes sense to do the epidemiology, but it 
makes sense to get the samples as early as possible.
    There is a series of phase one clinical trials and in the 
civilian sense, if you have been subject to phase one trials, 
there will be set up a stringent series of tests and sampling 
and follow up. We tried to get money to work on the Gulf War 
veterans. Having tried a pilot study with the medical 
assessment panel which was based a few hundred yards from our 
own laboratory, we were unable to, the MoD would not let us. 
Then when we put in an application to do a large study piggy-
backed on a large epidemiology study, we were told we could not 
because we had not done a pilot study. A simple old-fashioned 
trick of `blocking'.
    Mr. Sanders. My last point. In my view the most significant 
point that every one of you has made is that what we call Gulf 
War illness is not something just unique to people who served 
in the Gulf. Everything that exists in Gulf War illness, their 
problems one way or another exist in millions of people 
throughout the world. That is the significance. Every illness, 
whether it is ALS or chronic fatigue syndrome, all exist also 
in the civilian society. In many ways our Gulf War veterans 
were canaries. People thrown into an enormously toxic climate, 
greater concentration. They came out of that more ill than most 
civilians would be.
    Given that if you agree with my perception, do you think 
that in the back of government's mind you have a chemical 
industry, you have a nuclear industry which is not necessarily 
enthusiastic about people learning of a negative impact of 
chemicals or nuclear powers? Is that a factor in the reluctance 
of British and US governments to go forward?
    Dr. Jamal. I think my experience, I believe that is one of 
the important reasons; coming back to the question of 
organophosphates in 1992 when we started there was a confusion 
in the literature. Some of the studies, epidemiological 
studies, some of the studies went that way, but when you really 
looked at them you found that some of them were not based on 
the science. Epidemiology is good if it is directed with good 
science. We did the first study to define what is it you will 
look for in the epidemiology. So if you don't define what you 
want in the epidemiology based on good basic science, not 
necessarily in hundreds or tens of thousands of people, then 
when we designed the cross-sectional epidemiological piggy-back 
on the first one we found what we found and it was found by the 
scientific community; but that is an important point.
    Professor Hooper. if you look at organophosphates, they 
have been withdrawn now. We were warned about toxic compounds. 
51 stringent safeguards were to be used, people, crofters were 
to be advised before the spraying was done and the whole thing 
has got lost and fewer and fewer of the compounds have been 
withdrawn because they are too toxic. But, it has been too slow 
and far too many passengers.
    Dr. Jamal. The Gulf War veterans, as far as I know and at 
least the British veterans were exposed to organophosphates 
which were bought locally but most of these were not licensed 
to be used in the western world, not in the UK not in the US, 
not in Europe. So, that is also to be borne in mind.
    Mr. Shays. Mr. Putnam?
    Mr. Putnam. Dr. Hooper, you said that the Gulf War was the 
most toxic war?
    Professor Hooper. Yes.
    Mr. Putnam. You went on to elaborate on the general 
hypothesis, vaccine/no vaccine, cholinergic triple whammy as 
you put it which talks about pyridostigmine bromide and the 
sarin vx but not DU?
    Professor Hooper. DU came at the end. I picked up, I have a 
slide which I did not show you, Chairman, because I was 
conscious of your timeframe. The Institute of Medicine in the 
States has identified 33 toxic exposures of Gulf War veterans. 
I was picking out what I had been given, ones affecting people, 
those were vaccines, the triple whammy and DU and I think the 
plume smoke as well played a significant part. Studies have not 
been done in this country in that area although there has been 
a very good study in the States.
    Mr. Putnam. So, DU is one of them?
    Professor Hooper. Yes.
    Mr. Putnam. Dr. Jamal, you are focussing solely on 
organophosphates?
    Dr. Jamal. It was on the slide but right at the bottom. The 
slide did not show completely. It is chemicals and pesticides. 
Multiple vaccinations, DUs.
    Mr. Putnam. Dr. Busby, you say the main cause of these were 
the cause of Gulf War syndrome?
    Dr. Busby. Basically the new serum is in the chemical 
industry and the cancer people talk about the nuclear and 
everyone gets hung up in the middle. So without more money, and 
meanwhile everyone dies, and this is why I was cautious of 
saying if you had to take a view it would be the neurological 
symptoms, with agents which are discovered but what radiation 
dose causes mutation, generic mutation and inherited damage. So 
you can see the damage we saw after Chernobyl and all of these 
symptoms here have been recorded in the people who were 
radiating at Hiroshima and also the people living in the 
contaminated regions.
    Nevertheless I think the neurological symptoms could be 
placed at the door of the organophosphates and to the 
vaccination program but the mutation-based illnesses I don't 
think they are more than that, they are radiation damage, 
damage with genetic material.
    Mr. Putnam. So everyone is on the same basis?
    Dr. Busby. I think so. If you shoot 100 people with 
different colored bullets then you find dead people with lots 
of different colored bullets but they will all be dead and if 
you try to look for a similar cause you might say, `This is 
dead person syndrome' and then it is a complex reason but I 
don't think the cancers and leukaemia and lymphoma are caused 
by organophosphates.
    Professor Hooper. I did not show it but I have a slide in 
the statement showing the various examples that can be done by 
the different exposures on the body and it has crosses all over 
it. They are all capable of creating the genetic damage that 
can be done by nerve agents as well as DU. It produces free 
radicals and you can cause damage quite extensively. So, there 
are established mechanisms which can cause damage and many of 
them overlap and can be provoked by different agents. So the 
cocktail effect is troublesome. First of all are you adding or 
are you multiplying?
    Dr. Busby. There were none of these in Kosovo.
    Mr. Putnam. You said 350,000 tons?
    Dr. Busby. Yes, 350,000 in Iraq and about 10 tons in Kosovo 
but although 10 tons might sound less than 350,000, I 
calculated about 3m particles for the whole of every person in 
Europe which is a lot of particles.
    Mr. Putnam. None of you received any government funding for 
the studies?
    Dr. Busby. Unless you go onto the DU committee.
    Dr. Jamal. Not on Gulf War illness.
    Mr. Shays. Can we clarify something. Are you free to go 
after US studies? You are not inhibited being based in Great 
Britain? The answer is any of you can go after any study, 
nationality is not a factor or location is not a factor.
    [Witnesses indicating in the affirmative.]
    Mr. Shays. Do any of you have US funding for projects?
    [Witnesses indicating in the negative.]
    Mr. Shays. I interrupted, I am sorry.
    Mr. Putnam. You have not received any. How many of you have 
applied?
    Dr. Mackness. I received some from the MoD.
    Mr. Sanders. British MoD?
    Dr. Jamal. I have applied to the British MoD and did not 
get any funding. I applied to the American DoD jointly with two 
others who were turned down.
    Dr. Busby. The Goldsmith Foundation, the Government of 
Ireland, anywhere but the Government of England.
    Dr. Rook. I did apply to the MoD but was turned down.
    Professor Hooper. I have not applied to the MoD or the DOD.
    [Laughter.]
    Professor Hooper. Ours is done on a shoestring by the 
courtesy and generosity of the university where I have now 
retired from but I still do what I can.
    Dr. Rook. In view of this discussion, whether there are 
competing hypotheses or not, I made the point at the beginning 
of my talk--
    Mr. Putnam. No, I spotted that.
    Dr. Rook. But I think the epidemiology study by Cherry in 
Manchester is where they cluster different types of symptoms 
together. What we might be seeking to see is three types of 
cluster. We have Dr. Busby on mutation, the central nervous 
system clusters and then the peripheral mal-functions to do 
with the immune system and put that way it makes quite a lot of 
sense--
    Dr. Busby. The multi-vaccine work study is based on the 
British work--
    Dr. Rook. I have not done work on the Gulf veterans at all. 
My work was on the rest of science where the notion that 
bacterial components have powerful regulatory effects is now 
well established but I have not worked for the Gulf War 
veterans.
    Mr. Putnam. Are you aware of someone, all of you made 
reference to environmental factors, psychological and physical 
stress. Is there someone out there who is the primary focus?
    Professor Hooper. I think the Cherry/McMahon study which 
you will hear a little about next from Mr. Wessely has picked 
up vaccines and pesticides with suggestions of PB and that 
database is not publicly available to interrogation or at least 
it was not, so it makes it difficult to follow up. i think it 
is worthwhile saying at this stage that I think we all owe a 
great deal to Ross Perot and Bob Haley because without that 
work that was a pattern of work I wanted to see carried out in 
this country through epidemiology and we are getting down to 
some investigations but what Bob Haley did was to go through 
and show clear damage which is indisputable and I am sure we 
would find the same thing with other veterans. He took a lot of 
stick not just from politicians but from proper scientists as 
well but we owe him a great debt for it and we owe you a great 
debt as well. Thank you.
    Mr. Putnam. Dr. Jamal, your work on the effect of 
organophosphates on the farming population, that was only in 
northern England and Scotland, is that correct?
    Dr. Jamal. It was Northern England and Scotland. I based it 
on Scotland.
    Mr. Putnam. Is there similar evidence from the US that 
would reflect the equivalent rate of neurological damage among 
the farming population?
    Dr. Jamal. There are some studies made from california, 
people who spray, there is literature. There are others here 
and there but I don't really think US farmers dip sheep in the 
same way. We looked particularly at farmers dipping sheep and 
using these compounds in that context.
    Mr. Putnam. Thank you, Mr. Chairman.
    Mr. Shays. Lord Morris, you have some questions?
    Lord Morris. Quickly, Mr. Chairman. My first question is to 
you. I understand you asked the US General Accounting Office, 
the GAO, to look at plume models used by the US Defence 
Department to determine who might be exposed to the plume 
panacea?
    Mr. Shays. That is correct, we did that.
    Lord Morris. Can I ask should locations be included in 
those studies?
    Mr. Shays. That would make a lot of sense. We will make 
sure that is done.
    Lord Morris. My second point is I understand that the MoD 
has now agreed to fund the study of cancer in Gulf War veterans 
but there are very strong indications as has been said today, 
the Italian peace-keepers in Bosnia had cancer clusters 
discovered. There is no reported intention to undertake a 
similar study among our troops who served in the Balkans. If 
you are a veteran, that is a serious omission. I wondered if 
the Panel can comment?
    Dr. Busby. When the Mod were putting together their data on 
what course of studies they would fund, they sent me a draft of 
this to comment on and I took up a number of these points and 
suggested that they did fund epidemiological studies on cancer 
and made a number of other suggestions to them but they have 
always been blocked. I just get a rude letter back saying 
effectively `Sod off' really and I always find them extremely 
hostile. There is no discourse whatever, who do you think you 
are, where is the army and then when of course it was finally 
published it was published and you know the results.
    Another thing, they are not going to look at, for example, 
is the connection with uranium dust. They say DU goes into the 
dust and becomes one with the content of the earth and if we 
suggest otherwise they say, no it does not. You just get no 
further.
    Mr. Shays. Mr. Perot?
    Mr. Perot. First I would like to thank all the Panel for 
what you have been referring to. We have had similar problems 
to the ones you have had--
    Mr. Shays. Mr. Perot, it may be that you are further away, 
but we can't hear you.
    Mr. Perot. We have had problems like you have. We had 
problems getting to the Defense Department. This is back in the 
earlier period of time?
    Dr. Jamal. Yes.
    Mr. Perot. Ours has changed its position and is working 
hard to solve this problem and if we get that we can get a 
strong alliance between our two countries, get the same thing 
over here. Nothing could be more important than that we all 
work together as one team. So, that is something. We certainly 
would give the highest priority to you. My question really is 
have you looked at lead?
    Dr. Busby. Yes. Certainly there is a question of having 
metal.
    Mr. Perot. It could have toxins?
    Dr. Busby. Yes, it is toxic to the kidney, that is the 
particular organ.
    Mr. Perot. I guess my question, you have answered my 
fundamental question. To attract the best advice you have to 
have government facilities, otherwise you have other options, 
where to go at the time. It appears that so far you have not 
been formally received when you come in with concepts. Is that 
a fair statement?
    Dr. Busby. The reason I did it is essentially because I 
can't bear the idea of all these children dying. So, I don't do 
it for money.
    Mr. Perot. That was very clear. You take the risk of going 
to Iraq.
    Dr. Busby. That was scary.
    Mr. Perot. Yes, I'm sure it was. Those are my questions.
    Dr. Jamal. We have been in contact with Dr. Haley for many 
years now and I am so glad, absolutely delighted, that he was 
able to do those absolutely first class studies and I think we 
very much welcome the idea to have collaborated today and will 
continue with Dr. Haley.
    Mr. Perot. I would love to see Great Britain involved in a 
collaborative activity. The very reason if for no other reason 
that our government wants to bring in the best man among our 
allies to collaborate to come up with answers to these 
problems, that would be wonderful brain power. That is all I 
have.
    Mr. Sanders. If you don't get to the Gulf, move to Texas.
    Mr. Perot. You can stay right here. It's a small world. 
Anywhere in the world we can get together and collaborate. Once 
you collaborate you get something done.
    Mr. Shays. Depending on how you do the numbers we have two 
to five thousand doctors in the Department of Affairs, defense 
affairs; when we asked who had specialty in the workplace 
handling materials they could think of no-one and eventually 
got back to us and gave us two names so it was not surprising 
that when veterans came to talk to them that they had no lid on 
it and it was not their field, it was not their interest and 
our veterans felt like when they were talking to doctors, they 
looked at them, well you know the story, so it's not surprising 
to me--well, it is surprising. I would think what would have 
happened is that our department of special affairs and 
department of defence would work overtime to find doctors with 
those specialties and even though we raised it as a question, 
we still did not see it happen.
    My first question to all of you and I know you might find 
this discomforting, but I need to satisfy my own curiosity on 
this: Is there anything that was said by one of you by someone 
else that you may disagree with or say it is overemphasized or 
under-emphasized. Mr. Mackness, is there any one thing Drs 
Jamal, Rook, Busby or Hooper said you would want to say `Yes, 
but'?
    Dr. Mackness. No, but while I have been sitting here 
listening to the discussions I have interestingly come across 
another thought. It was about the uranium causing membrane 
damage and organophosphate produces damage that is done to cell 
membranes so if it protects against organophosphates and it 
protects against theoretical damage in uranium we may have a 
universal link because the enzyme is low in the veterans.
    Mr. Shays. In your work have you done any genetic pre-
disposition?
    Dr. Mackness. To what?
    Mr. Shays. In other words, basic genetic make up makes them 
more susceptible to Gulf War veterans?
    Dr. Mackness. No, not genetic.
    Mr. Shays. Anything, Dr. Jamal that the others said that 
you want to put in a different light?
    Dr. Jamal. Well, I think if I may summarize I think there 
is a link in a combination between all of what has been said. I 
would agree with the proposal it seems to be neurological but 
there is a radiological risk, the links being enhanced by the 
chemical because they are genetic as well as toxic to the 
chromosomes and cause mutation. So there may be an association 
there. For instance, the blood barrier alters when immunology 
alters and I think there is a linkage between all the 
approaches and there is one way to find out, by doing further 
studies.
    Mr. Shays. That question I asked the first two, any 
comment?
    Dr. Busby. I don't know enough about their areas to be able 
to really comment sensibly. From looking at their results, a 
lot of them seem to me quite persuasive. There seem to be some 
elements of their presentation that I would call arm-waving but 
we all do that and it is a shorthand for ourselves to say we 
know we have an easy way of communicating. So, I am not taking 
them to task but there are areas where I would say, `Exactly 
what do you mean by that and how do you know that is true'?
    Mr. Shays. We only gave everybody ten minutes--
    Mr. Sanders. You are speaking for the audience--
    Mr. Shays. They knew their audience. I am going to come 
back to you because I have a theory. Dr. Rook?
    Dr. Rook. I think there has been a problem in many studies 
due to the fact that the ministries have been unwilling to let 
people examine the bases themselves and unwilling to get 
clinically-based studies superimposed on the epidemiological 
studies. There have been a lot of studies of Gulf War veterans, 
a small number of veterans have been looked at. One of the 
studies Mr. Busby mentioned about uranium in the Gulf War 
veterans, maybe we are all being exposed to uranium in the 
modern world but it is not the fault of the world. If people 
are not given ready access to the patients, to do private 
studies, then it is very difficult to do and another point Dr. 
Jamal made, it is helpful to do pilot studies because it helps 
epidemiologists to know what to look for.
    The idea epidemiologists can do wonderful studies is not 
true. Every epidemiologist needs to know what they are looking 
for. It is not the different questions you ask but what to look 
for. So we have been hindered in a sense.
    Mr. Shays. Professor Hooper, anything you would put in a 
different light?
    Professor Hooper. No, I think I have been rather 
reinforced, rather than different lights. On the first slide I 
put in about the new endocrine immune system and I think that 
is not a novel concept and it ties together the diverse system, 
the nervous talks to the endocrine system and all this cross-
talk going on in the body and this shows that these messages go 
not just to the cells that you want to talk to but other cells 
as well that you need to unscramble. So, I feel we have a 
conceptual framework for our thinking which allows us to 
understand the different insults which have come to the Gulf 
War veterans and they are formidable and very extensive.
    Mr. Shays. It strikes me that you have a lot of goals. One 
is that you are not getting funding, the other is it strikes me 
that your theories are not exclusive, let me put it this way: 
It strikes me in many cases you are complementing each other, 
not working in competition. That is the way I felt. I would be 
interested to know, I think with DU in the US we have not moved 
forward that way and maybe because the implications are quite 
significant, we used DU in the structure of a tank and we used 
DU to penetrate. We use it in a lot of different ways and if it 
was found to be harmful to the people, who would be looking at 
it afterwards? It puts into play a lot of questions about what 
were you doing and what were you using?
    I am struck by that but I would like to know the cost of 
your project. If you did a study on this, what kind of dollars 
are you talking about?
    Dr. Busby. What kind of study are you talking about?
    [Laughter.]
    Mr. Shays. What kind of studies did you ask for? let me be 
more clear. You have made requests for funding. What kind of 
dollars are we talking about?
    Dr. Busby. I am looking to do two years' study and in 
pounds about <brit-pound>80,000.
    Mr. Shays. In my way of looking at it that is not a lot of 
money in the framework of the context that I have--
    Mr. Sanders. It's too small a sum of money, we can't give 
it to you, sir.
    Dr. Busby. I'll make it four years.
    Mr. Shays. I am not being reckless about the question. I 
did not know if you would say 8m.
    Dr. Busby. The truth is these studies are not difficult. 
They require somebody to do a certain amount of work for a 
certain amount of time. I am not looking to become rich, I am 
just interested in the work, but I can't do the work because I 
am not funded.
    Mr. Sanders. I think Dr. Busby raised an interesting point 
about the British government. I think there are, it is like a 
political issue, these guys and we look at the world in Gulf 
War illness in a particular way. Then there are another group 
of people who have access--
    Mr. Shays. 300m in the US.
    Mr. Sanders. Which has not given us a tiny fraction of the 
information revealed to us today. So, we have to say, okay, 
there are two ways of looking at the world. Let's continue to 
fund, but let's give these guys half the money and see what 
they can do with a few hundred million dollars and see where we 
proceed. But, there are two world views out there and one world 
view is getting all the money.
    Mr. Perot. I suggest that the best thing that can happen is 
that you address Mr. Blair and I think you will see a sea 
change in activity in this country. We can still collaborate 
but you will have the opportunity to collaborate with our 
science we have in the US but I feel very strongly the first 
step would be if you had the man to hear what we heard today 
direct from you just sit down and give, in little over an hour, 
present to him, I think we will see all the collaboration will 
still take place between the US and Great Britain. But, 
suddenly, if we start funding your work and have Great Britain, 
they are moving along on the dollar, I would like them to have 
the opportunity to do it and get this one theme.
    Mr. Shays. If I may suggest it is a very fine idea. We are 
going to find a way to intensify in the US in a seminar type 
opportunity where we can call in some of the DoD folks, have 
you all make a presentation a little longer than you have done 
now and then ask for there to be some response and dialogue. We 
might do it on an informal basis. I have more questions I could 
ask you but I have a feeling you all should come before a Panel 
again.
    Mr. Sanders. Would you come to the US and confront the DVA?
    Mr. Shays. Can you use a different word?
    Dr. Busby. 'Confront' is an important word.
    Mr. Sanders. Let us help you while your research is not 
done.
    Mr. Shays. We have other questions but I think what we are 
going to do is we might ask for you all to submit some 
responses for the record before we close the record and then we 
are going to find a way to get you to the US to be able to 
continue this dialogue and so unless there is some last 
comments--
    Dr. Busby. There is something I meant to say when you were 
talking. You should know that the World Health Organization and 
the International Atomic Agency have an agreement not to 
research, or the WHO is constrained by this agreement not to 
research the relationship between radiation and health which 
has to be left to the atomic people which is nuclear power.
    Mr. Shays. Is that your theory or fact?
    Dr. Busby. No, it is fact.
    Mr. Shays. I have never heard that to be true and it would 
be pretty stunning.
    Dr. Busby. It is true, it was done in 1969. I could show 
you the document.
    Mr. Shays. I would like that submitted to our Committee. We 
are running a little behind on time and I am concerned about 
that but you all were an excellent panel and we thank you. Dr. 
Jamal, for the record you were already before our committee and 
you were an excellent witness and we would love to get you back 
there again.
    Mr. Shays. Our final speaker today is Professor Simon 
Wessely from Guy's, King's and St. Thomas' School of Medicine 
and author of epidemiological studies relating to Gulf War 
illness

 STATEMENT OF SIMON WESSELY, AUTHOR OF EPIDEMIOLOGICAL STUDIES

    Professor Wessely. This has been a very large study group, 
you have already heard them. The basic thing of what we have 
done in working on this problem since 1996, our approach is 
that there were 53,000 British armed forces in the Gulf and we 
cannot study them all so we have run a random sample of one in 
ten. We are absolutely adamant that it is worth the effort 
because at the end we want to say something not only to the 
small number of veterans we studied but the whole veteran 
community. So we can say. `Yes, you have a problem you should 
worry about or no, you don't.'
    I just walked in at the end with the epidemiological 
studies and then I want to go on to clinical studies which we 
are now doing generally for the whole UK government.
    We traced 4,000 UK armed forces in the Gulf and we compared 
them with 4,000 UK armed forces who went to Bosnia so we 
compared them with people fit for active duty and went off on a 
very nasty and hazardous deployment in 1992 and compared with 
4,000 who did not go to either conflict. That took me about 30 
seconds to say, two years to do and it was extremely difficult.
    I give you a list of bullet points and we found compelling 
evidence of the evidence of the UK armed forces in the Gulf. It 
is not found in those that went to Bosnia. There is an 
undisputable rise in and a decline in physical health, a two or 
three-fold rise in symptoms and because we have the random 
sample that is representative of the entire appointment we can 
say without any shadow of a doubt there is a serious problem in 
the forces that went to the Gulf and I think we have shown that 
definitively in the UK armed forces and it has been confirmed 
by the Cherry Group.
    We did not find evidence of a Gulf War syndrome on a 
statistical analysis, there was no difference between that and 
the Gulf era. It was a relatively academic point of interest to 
relatively few people.
    Most important is we found a Gulf War health effect but no 
evidence of a unique illness. That is what McFarlane and others 
groups have shown. We found these were symptoms which were 
associated with certain specific exposures and key ones using 
records that were available in about one third of the personnel 
who were receiving multiple vaccines, not any singular vaccine, 
but multi-vaccines which was a clear cut relationship, the more 
vaccines you received the more likely you were to have symptoms 
some years later and we thought that was because they were 
given only when you were serving in the Gulf.
    In Germany there was not an association but I have to say 
that is a more tricky analysis and there is some dispute how 
valid that is, if it is valid, for reasons we will come on to. 
It is difficult to look at other exposures and we found 
generally sick people reported more of the exposures we could 
not report independently and it is difficult to know what to 
make of that.
    So, we did that and then we went on to clinical studies you 
have heard about which are now concluded and we got 400 
veterans who were sick from the Gulf, well from the Gulf, sick 
from Bosnia and well from Bosnia and we got them to come to 
King's. What did we find there? Some things were good, some not 
so good. Their neurological health, concentration, memory and 
so on and also some had symptoms and complained of problems and 
generally they were good so the findings were reassuring.
    Psychiatric examination showed there was an increase in 
depression and anxiety, not substantial but it was there. The 
most particular interest was post traumatic stress disease 
which was quite small, from 1 percent to 3 percent in Gulf War 
veterans which signified the Gulf War veterans who did not have 
post traumatic stress disease. It does not exclude the 
situation, it means psychiatric diagnoses are not the answer. 
We have carried out neurological studies, I am not a 
neurologist but that is currently under review.
    Looking at the systems concentrating with the single fibre 
genes so on and so forth, it is a little difficult to talk on 
that. We have also done immunological studies and you have 
heard from Graham Rook. We can say we have already on 
epidemiological grounds confirmed the brand of this hypothesis 
and being immunized after a condition of stress which is why I 
emphasize the finding of the vaccines only seems to have had 
the effect in the Gulf.
    [The statement of Professor Wessely follows:]
    [GRAPHIC] [TIFF OMITTED] T9074.153
    
    [GRAPHIC] [TIFF OMITTED] T9074.154
    
    [GRAPHIC] [TIFF OMITTED] T9074.155
    
    [GRAPHIC] [TIFF OMITTED] T9074.156
    
    [GRAPHIC] [TIFF OMITTED] T9074.157
    
    [GRAPHIC] [TIFF OMITTED] T9074.158
    
    [GRAPHIC] [TIFF OMITTED] T9074.159
    
    Mr. Sanders. You effectively agree with what he said?
    Professor Wessely. Yes, that is only an association. We 
have done that in the laboratory and Graham has given some 
hints on that and we partially confirmed some of the 
hypothesis. That is also under review in the journal but as 
Graham has already mentioned it I can mention it again. we have 
had replication of the hypothesis. I do not think it can be now 
as time has passed.
    We have also done in collaboration with Dr. Mackness, we 
have sent him all our examples. He has done analyses there. 
Again, it is under review. By using collaborators we found 
something interesting and we are now in the middle of further 
analyses of data, doing follow-up studies to see what has 
happened to people over time. The trend is looking slightly 
more encouraging but there is still a difference between the 
Gulf and Bosnia.
    In the one minute I have left I would like to pay tribute 
to a couple of things: To the veterans who took part in the 
study, there were 12,000 and the difficulty was trying to find 
them but once we found them, the amount of cooperation was 
remarkable. We are grateful to the veterans who came up to 
King's for the study and the key group there was not the sick 
ones but the well ones. They gave two days of their time, we 
did not pay them and we didn't half mess them around for 
altruistic reasons. I would like to thank also, we have had 
funding from the DoD originally; also I would like to thank the 
MoD in the UK, we have had cooperation from the MoD and I would 
like to thank the officials there I have worked with over the 
years. So, I would like to place on record our thanks to them 
as well. That is where I will conclude. I am sorry I do not 
have a presentation.
    Mr. Shays. Professor, we appreciate you coming. You flew 
in?
    Professor Wessely. Yes, just got in.
    Mr. Shays. So you have hardly had a chance to take a 
breath. You have before you Congressman Bernie Sanders, 
Congressman Adam Putnam and Lord Morris. My name is Christopher 
Shays and we will all ask you questions; we will start with Mr. 
Sanders.
    Mr. Sanders. Mr. Shays and I suffer from this syndrome: We 
have been to many, many meetings and heard from many, many 
government officials who have studied this year on year. So, we 
have a unique syndrome of listening to this. I don't know when 
you came in but you had five people up here who in various ways 
have told us that organophosphates and DU, without any doubt in 
their minds at least, causes very serious, not mental but 
physical effects on people. We have people in the US who have 
come to that same conclusion.
    One of the problems that I have when I hear from 
government-funded people is they are still studying this and 
you have other people now documenting and demonstrating the 
actual damage done by assaults of organophosphates and DU. They 
seem to be twelve years ahead. So let me start off with the 
easy question that is:
    If these people are making demonstrations that they are 
showing us on a screen of various brain scans, actual damage 
done, why is the British government, you think, not funding 
those people?
    Professor Wessely. I don't represent the government, 
Congressman. I have absolutely no idea. I can't answer that. I 
can say our work is collaborated with Rook and Mackness who I 
saw at the end of the list. So, we have been collaborating with 
scientists. As for other questions, I can tell you I have got 
money and I have failed to get money. We got turned down and we 
originally were turned down with Graham for the new 
application. Some grants we had and some we had not, but I 
don't think I can answer why others did not.
    Mr. Sanders. In your opinion is the British government 
funding the most significant research that may help explain the 
Gulf War syndrome?
    Professor Wessely. Any scientist is going to say yes. I 
have run out of money now and I am on record as saying I am 
disappointed with this. I think we should have taken a more 
long-term strategic approach, much better monitoring of our 
soldiers past and present and there is much more work to be 
done. I would also say it does not matter how much money you 
throw at us and I would like more thrown at me, but we need 
time to get to the position to test the hypothesis, to test Dr. 
Rook's hypothesis and to test Dr. Jamal's hypothesis. It takes 
time to recruit sick and well veterans. It took us two years to 
find these people. It is not easy and to find representative 
samples. You could have given ten times the amount you gave us 
but it would not really have been enough to get genuine 
clinical representative samples, there is not a real short cut 
to that.
    Mr. Sanders. In your particular judgment, is exposure to 
organophosphates and DU and the various vaccines and anti-nerve 
agents given to the soldiers one of the causes of Gulf War 
syndrome?
    Professor Wessely. I can speak to the work we have done. It 
is convincing that the particular schedule in multi-vaccines 
has been associated with Gulf War illness. We never looked at 
DU so I don't know.
    Mr. Sanders. Has there been any government-funded study 
that has looked at DU?
    Professor Wessely. I can't answer that, I don't know.
    Mr. Sanders. The answer is no?
    Professor Wessely. No.
    Mr. Sanders. After 11 years there is none?
    Professor Wessely. Again, it is very difficult to know who 
is exposed to what. We use the same techniques as Dr. Jamal so 
we have done that. To explain the large health effect we found, 
it has to be quite wide spread which is why we are interested 
in vaccines which are given to most of the groups rather than 
DU which it is hard to explain why that would have affected 
Admirals in the Navy so we prepared the hypothesis around 
mental and psychological factors as well. They would have 
affected large numbers of people across the entire performance 
which is what the epidemiological tests showed. If you look at 
battle fatigue, that was particularly mentioned in relation to 
World War II and people remained affected by that for many, 
many years, indeed their entire lives.
    If you send men to war there is no such thing as a `free 
lunch' and people have always been damaged by war and there are 
changes. We see things in the Gulf but things that are common 
to the experience of war--
    Mr. Sanders. 'They are neither physical nor psychological 
but somewhere in between'?
    Professor Wessely. Well, I think I am doing what we do 
which is a slight bit of spin. If you look at the First World 
War records you find--
    Mr. Sanders. Is there something in between physical and 
psychological?
    Professor Wessely. I think I am trying to say the end 
stages look quite similar. You can find stages in the First 
World War which sound like Gulf War syndrome, but they could 
not have been exposed to what they were exposed to in the Gulf 
War; but you find extremely moving descriptions which sound 
like what we are hearing as well.
    Mr. Sanders. You say:
    ``As there is little evidence that individual vaccines are 
associated with long-terms side effects, but the association is 
context dependent, the conclusion is that routine vaccination 
is preferable to, say, `on the spot' measures.''
    Professor Wessely. That would be a political interpretation 
you have put on what I said--
    Mr. Sanders. It was in the context of being given a lot of 
vaccines in a short space of time and the hypothesis of the 
high stress situation. If you think those vaccines are 
important, then clearly you should be giving them on a more 
routine basis, not in the heat of the day. The results of what 
Dr. Rook identified are the results of taking too many 
different vaccines in too short a period of time or too many of 
the same vaccines; if two is good, four is better while the 
bombs are falling?
    Professor Wessely. It is difficult to come up with that 
very fine plain analysis but in general the pattern we found 
which was indeed as Graham predicted, it was a small number of 
vaccines rather than the nature of the individual vaccine but 
it is difficult to be serious about that.
    Mr. Sanders. You did not identify how many of each person?
    Professor Wessely. Yes, we did. Where we had records we 
did.
    Mr. Sanders. What was the range?
    Professor Wessely. It was from 1 to 10 I think.
    Mr. Sanders. The future implication, not just the field 
application or civil applications we are talking about mass 
vaccinations and inoculations?
    Professor Wessely. I would be very careful not to do that. 
I am a very pro vaccination person and it is the particular 
circumstances of the Gulf War. In relation to civil policy I 
don't have any, to be frank. I can only look at what we have in 
front of us.
    Mr. Sanders. The prophylaxis said between the UK and US was 
different?
    Professor Wessely. Yes.
    Mr. Sanders. Is there any research out there that 
demonstrates the impacts the different schedules have?
    Professor Wessely. I think the only person who has looked 
at that is Steel. I think you knew far more, we were pretty bad 
with the records. You will know more about this than me but I 
understand there is no contemporary fact database. I may be 
wrong on that but that is what I think is the case. You talk 
about everyone has to agree that record-keeping was very poor.
    Mr. Sanders. What does ``Neurological studies do not 
suggest major deficits'' mean?
    Professor Wessely. We did a complicated neurological test 
looking at memory retention and so forth and those findings 
were generally normal. There were some changes that tended to 
be related to mood but we did not find evidence of strong 
neurological deficit.
    Mr. Shays. Thank you. Lord Morris?
    Lord Morris. Time is at a premium now so I must be brief. 
You heard me earlier refer to the incidences of Italian peace-
keepers in Bosnia and finding there the true cancer costs?
    Professor Wessely. So I heard.
    Lord Morris. I know that you are very familiar with what 
has been done from Britain vis a vis Gulf War veterans. There 
is concern that there is to be no reported intention now of a 
study of cancer in people who served in the Balkans. Could you 
comment on that?
    Professor Wessely. We are cooperating with the McFarlane 
Group and Hygiene group looking at cancer in the color format. 
We would like to look at cancer in the Bosnian veterans and it 
is no secret that I think that could be studied and I believe 
that members of the Armed Forces should have particularly their 
mortality and cancer incidence routinely monitored. We are in a 
good position to do that because we have good epidemiological 
bases and cancer bases that cover the whole of the UK. I think 
we should be routinely looking at those databases.
    Mr. Shays. Mr. Perot?
    Mr. Perot. Have you had a chance to present these findings 
to the Prime Minister?
    Professor Wessely. No, not normally.
    Mr. Perot. Is your specialty psychiatry?
    Professor Wessely. Psychiatry and epidemiology.
    Mr. Perot. How much money in your research have you 
received from Great Britain?
    Professor Wessely. In Great Britain we received a grant 
from the MoD to study the epidemiology and from the Medical 
Research Council to study the outcome of the Gulf War report 
and that is what we have received.
    Mr. Perot. How much have you received?
    Professor Wessely. We received <brit-pound>300,000 for 
neurology and about <brit-pound>140,000 for the follow-up 
study. We failed to get other monies.
    Mr. Perot. When did you start going to the government?
    Professor Wessely. We went in 1996 and at that time they 
were not very keen on funding these kind of studies. Then we 
went to the MoD and most of it is paid for by you and that cost 
you $100,000 and I think that is very good value, but there we 
go. Then we went back to look at a similar epidemiological 
study also funded by DoD and that cost around $300,000.
    Mr. Perot. Who were you dealing with in the US?
    Professor Wessely. Oh dear. That's a good question. It 
would have been, you are going to have to help me on this one.
    Mr. Perot. Boston?
    Professor Wessely. I know who he is but on the individual 
level we never really saw them. Nicholls' name I recall, Simon 
Checks but we were over here. It was a rather faceless process.
    Mr. Perot. Is that funding still coming?
    Professor Wessely. No.
    Mr. Perot. Roughly when did that stop?
    Professor Wessely. The last of funding we had was probably 
two years ago.
    Mr. Perot. Can you talk about World War I? You are not 
aware of the chemical weapons involved in World War I?
    Professor Wessely. Indeed. I am afraid I should have said 
as well DoD also funded that historical study. We made a 
historical database at the time; we are very, very aware that 
chemical warfare was not invented by Saddam Hussein. You spend 
time reading the records from World War I. Not to be moved by 
them, means you have no heart at all. They are remarkable 
stories told in a familiar, amazing language.
    Mr. Shays. I have a few questions. I want to make sure I 
have not misunderstood you. You said you found Gulf War 
illness?
    Professor Wessely. We have not found a Gulf War syndrome 
which would be a particular combination of scientific symptoms 
associated with the Gulf. We found the same pattern of symptoms 
as possible, the difference being the Gulf people. They had 
more of them, were more intense.
    Mr. Shays. So, it is not your testimony you did not find 
Gulf War illness. Do you believe that a disproportionate number 
of Gulf War veterans be they from the UK or from the US came 
home sick?
    Professor Wessely. I don't have to believe it. Our evidence 
shows clearly for the UK that that is the case. There has been 
a significant increase in ill-health with Gulf War veterans 
which must be due to serving in the Gulf because they did not 
occur to those who served in the Balkans.
    Mr. Shays. So you are not taking the position because you 
did not find something that something does not exist?
    Professor Wessely. That's true. We did not find a unique 
syndrome but I think it is a bi of an academic sideline. The 
important thing is we found an important health situation.
    Mr. Shays. When I look at this research you have to know 
what you are looking for. When you go into that room you have 
to make sure you went into the right room and you have to make 
sure that you actually opened the door and looked in. If 
someone does a study and says, `We did not find a problem or 
did not find this or that' it does not mean it does not exist. 
It may mean they did not know what they were looking for or 
they did not go in?
    Professor Wessely. We looked at all the doors, we went in 
and what we found what was behind them.
    Mr. Shays. In looking at the relationship of 
organophosphates and Gulf War illness, most DoD and MoD studies 
did not attempt to measure nerve gas in organophosphates. This 
is my question: In your survey did you attempt to ask questions 
about organophosphates?
    Professor Wessely. Yes.
    Mr. Shays. If yes, what are your findings?
    Professor Wessely. In terms of the reporting, people who 
reported exposed to nerve gas we asked were those with 
organophosphates more likely to be ill. The problem with that 
as a statement is it is not very informative. They were sick, 
they remembered more of everything which is why I put more 
emphasis on the immunological data and vaccine data where we 
had independent verification. On the organophosphates, we found 
people exposed to organophosphates but to be honest most people 
commonly did not know. We asked about the DU. The commonest 
response was `I haven't a clue.'
    Mr. Shays. In one of your earlier published papers you 
concluded . . . resulted in so-called post war syndrome, 
described by different medical changing terms?
    Professor Wessely. Yes.
    Mr. Shays. For example, if this had been in Vietnam Agent 
Orange and that was probably only particular to Vietnam, would 
you agree various post war syndromes might be due to different 
causes?
    Professor Wessely. Absolutely. That is the point we are 
making. This is a classic example. Agent Orange and Gulf War 
veterans are very similar in their symptoms as I am sure you 
know.
    Mr. Shays. What about your conclusions on so-called stress. 
Explain that to me.
    Professor Wessely. Again, it is not as you would say, 
rocket science, but clearly going to war is a stressful 
business and I can't believe in this day and age anybody denies 
that and some people will come back with visible wounds and 
some with invisible wounds.
    Mr. Shays. But stress can change your biological make-up?
    Professor Wessely. Of course, yes.
    Mr. Shays. And stress can perhaps let certain things 
penetrate your body?
    Professor Wessely. It can indeed. Just to reiterate what I 
have said, we looked at that and the classic symptom is PTSD. 
That does not account for the rates of disability in sick UK 
Gulf War veterans. It has increased, but not by very much, 
nothing like enough for the explanation of what we found.
    Mr. Shays. When people imagine PTSD, they judge that like 
judging the unified symptom and it could be a whole host of 
things caused by a whole host of different causes.
    Professor Wessely. Well, actually I agree with you 
completely and in much broader terms than we intend to use it 
but I said if we use it in the way the US are using it in 
diagnostic manuals, that is not the explanation. Funnily enough 
I am on your side but PTSD is mentioned. We have found that to 
be increased which you would expect but not by very much. 1-3 
percent.
    Mr. Shays. It has been pretty well established that the 
epidemiological research allies with case definition. I think 
of it how Dr. Haley made some pretty great discoveries using 
the case definition when you compared the sick veterans from 
the well. It seems that that would confound the results. Is it 
true you avoided a case definition and if so, why?
    Professor Wessely. I have not avoided a case definition 
because we did not have one. We started out in 1995 where we 
had patients having very different things. There was nothing 
agreed as to what was the Gulf War problem, was it a 
psychological problem. So we first of all we went very broad 
indeed and then we decided where are you most likely to find 
the problems and we decided where people who had physical 
disabilities and the second case was the physical disability 
two standard deviations below, which was Bosnia and Kosovo. We 
looked at those where you are likely-to continue your analogy-
we looked behind the door, where we were likely to find it 
which was the physically disabled.
    Mr. Shays. It strikes me one of the most difficult things 
for you to develop your theory, why it happened and then you 
test it and find your theories wrong. You learn as much by 
learning it is wrong as if it is right. Then you go in a 
different direction. What I found with Mr. Haley's work and 
some of the people here, they might have been locked into a 
better theory of what might have occurred but they have deemed 
to not get the funding so we as a Committee are struggling with 
the fact that some of the people in our country we think it has 
all been vetted in a certain area and ignored certain elements 
we saw on the table before us. Your work should have been done 
but in addition the work of these men should have been done in 
our opinion and it would have given a better complement to sort 
out, a better view.
    Mr. Sanders. Let me pick up on the point. I don't mean to 
be rude, Professor Wessely--
    Professor Wessely. That usually means you are about to be 
rude.
    Mr. Sanders. You weren't here today when we heard from the 
veterans. They are angry, frustrated; they believe your 
government has not been responsive to their pain and that is 
what the veterans are saying exactly about the US government. 
One of the frustrations that they have in the US is that we 
have spent several hundred million dollars on studies and on 
studies and on studies and they go nowhere. What these guys 
want to know is what is causing their illness and how we can 
treat their illness. Having said that I regard that leading us 
in the wrong direction when you say the symptoms are neither 
physical nor psychological but somewhere in between.
    We have five prominent scientists who were here a moment 
ago telling us that they are physical, that exposure to the DU, 
organophosphates, exposure to a variety of vaccines including 
vaccines with PB, that this is nothing to do with psychology 
and I don't argue with you that stress affects everybody in 
war. If a guy gets hit over the head with a hammer, we are not 
talking about a psychological--
    Mr. Shays. You might have--
    Mr. Sanders. But the results are quite physical in his body 
and have to be treated in a physical way and I think when you 
write they are neither physical nor psychological, what you are 
doing is saying the evidence we heard here for an hour is 
irrelevant and when you say that, veterans are going to get 
very, very angry.
    Professor Wessely. First of all, I have not said that.
    Mr. Sanders. I read you the exact quote--
    Professor Wessely. I said they are physical and 
psychological.
    Mr. Sanders. ``They are neither physical nor psychological 
but somewhere in between.''
    Professor Wessely. I have said that I believe this is a 
complex story with many strands to it. I have said you cannot 
send men to war and not expect psychological problems but I 
have also said we made a substantial contribution to the 
answering of the points you made, to the work we have done with 
Mackness and Rook. You have to take what we have done by what 
we have done. We have taken a large view and I am closely 
allied to the people you were listening to an hour ago. You 
take us as you find us, Congressman. We are there on the record 
with the literature and I take some pride in what we have done 
to develop and understand Gulf War illness and we have 
collaborated with scientists and you have heard about them an 
hour ago. It is the same people, Congressman.
    Mr. Sanders. If I might conclude, the war has been over for 
11 years. The truth of the matter is that the amount of 
research and understanding and treatment that has been 
developed despite hundreds of millions of dollars have yielded 
relatively little. If you compare that to AIDS research and 
treatment you would find Gulf War treatment sorely neglected. 
So, I say we should not be proud of government's role and we 
have a lot of work to do and I just wanted to get that out.
    Mr. Shays. You did. The problem we have is we think it has 
been a story of failure of government to deal with the issue.
    Professor Wessely. I agree with you. We went to the UK 
government in 1995 or 1996 and we were told to, as the last 
speaker said, to `Sod off'. So, I am completely au fait with 
that and repeatedly on record as saying I do not think handling 
veterans now, I don't think we have a very good record in this 
country of looking after the veteran community. I have said 
that on many occasions as Lord Morris will confirm.
    Mr. Shays. Mr. Putnam, do you have any questions?
    Mr. Putnam. A gentleman from Vermont made my point very 
eloquently. We have already heard your statement that the 
historical studies reflect the syndrome is neither physical nor 
psychological but somewhere in between. That is not acceptable 
to our veterans, it is not acceptable to those who are overseas 
now being exposed to the same risks they were exposed to years 
ago. While you did clearly say that PTSD is not the cause, most 
of this discussion has focussed on the psychiatric rather than 
the physical and it is the physical that causes people's livers 
to shut down and intestinal and endocrine systems to shut down 
and reproductive health to be destroyed, so in that regard I 
would agree with everything Mr. Sanders said which is we have a 
long way to go and we learned more in the previous panel of 
entrepreneurial researchers.
    Mr. Shays. We are delighted to have a point or two if you 
want to put anything on the record.
    Professor Wessely. Well, I think the points have been made 
but I believe it is a complex disorder. It is like a large 
jigsaw. I have the people round the table put some pieces in 
that jigsaw but there are large areas that remain dark and I am 
as committed as anyone else is and you are preaching to the 
converted on that one.
    Mr. Shays. We thank you for your work, where your heart is 
as well as all the other people here before. We collectively 
are in this together to make a big difference and we look 
forward to making a difference.
    I would like to say, Lord Morris, this has been a unique 
experience to be your guest in this magnificent chamber and to 
be in my forefathers' home country and I would like to present 
you with a gavel we have used in our hearings for a number of 
years and I am going to part with it because it has a home with 
you.
    [Applause.]
    Lord Morris. I shall treasure this gavel. I promise not to 
use it too frequently for purposes other than those for which 
it was made.
    Can I in turn pay very high tribute to our American guests. 
I think Christopher, as Mark Twain, who if he did not ought to 
have said when he was asked about Wagner's music. He said 
``Wagner's music is not as bad as it sounds.''
    [Laughter.]
    Lord Morris. Christopher, because of your work and your 
fellow Congressmen and that of Ross Perot whom we all admire 
and those who have been working behind the scenes with you, 
this occasion has been far more successful than any of us could 
possibly have hoped. If I can say so, the Royal British Legion 
has been very much involved in our affairs. What we have 
achieved here today and yesterday and hope to achieve tomorrow, 
could not even have been contemplated but for the support of 
the Royal British Legion.
    I pay a tribute to Terry English, to Lorna Rudkins, to 
Jeremy, to others here today from the Legion. All of us look 
forward to being their hosts later today. We are deeply 
grateful, Terry. Please accept that on our behalf.
    Again, Chris, can I thank you very much for inviting us. I 
think we have done a service to everyone involved. I say 
tomorrow in the Royal Robing Room. We are not saying that 
people in executive government here or in the US want to see 
stricken veterans and disadvantaged. What we are saying is 
their problems are our problems. They are the problems they 
should not be bearing, the costs of the Gulf War but I thank 
everyone who has helped in any way in the making of what for me 
has been a very memorable experience.
    Mr. Shays. Thank you very much. I don't have a gavel to 
close. Can you use the gavel?
    [Gavel by Lord Morris.]
    [Whereupon, at 4:28 p.m., the hearing was adjourned.]

    [Conclusion of transcript insert from July 18, 2002.]
    Mr. Shays. At this time the chairman would recognize the 
most distinguished and articulate vice chairman of this 
subcommittee.
    Mr. Putnam. Thank you, Mr. Chairman. I continue to be 
appreciative of your work and Mr. Sanders' work in this field. 
I came late to this cause and have been proud to participate in 
it, having had a number of constituents impacted by it.
    The lessons we learned in London were tremendous and I 
sincerely hope that our Pentagon and our Defense Department 
apply the lessons of the last war to the pending one.
    Mr. Shays. I thank the gentleman.
    I would also say that it was an extraordinary privilege for 
you and Mr. Sanders and myself to address members of the House 
of Lords and the House of Commons during our 2-day experience 
in London.
    We would also note for the record that we have the most 
distinguished chairman of the International Relations 
Committee, Mr. Ben Gilman, and unless he has something to say, 
I am prepared to adjourn this hearing. [Laughter.]
    Mr. Gilman. Looks like I came at the right time.
    Mr. Shays. I do have one order of business.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place opening statements in the 
record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    Any comments that the most distinguished gentleman from New 
York would like to make?
    Mr. Gilman. No, I just want to commend you once again for 
your great work in making certain that we follow all of the 
needs of our personnel overseas and our military personnel. I 
am very distressed to read in the morning papers about the 
testing of nerve gas in some of our areas, and I hope our 
chairman will take a look at all of that.
    Mr. Shays. We definitely will.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    If there is nothing further, we will now adjourn this 
session.
    [Whereupon, at 9:42 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
